   i  ual ep
t the   n ress
October 1, 1997 - March 31, 1998




        Office of inspector General
   U.S. General Services Administration
            Foreword




This report, submitted pursuant to the Inspector General Act of 1978, as amended,
summarizes the activities of the Office of Inspector General (DIG) for the 6-month
reporting period that ended March 31, 1998.

During this reporting period, we continued our emphasis on conducting broad-based
reviews of major GSA programs and operations. For example, we reviewed GSA s
progress in upgrading the security of Federal buildings. This included looking at the
control and installation status of security equipment, security countermeasures, and
the use offunds allocated to make enhancements. This review led to the issuance of
several alert reports to surface significant concerns requiring management s
immediate attention. We also made recommendations to help GSA with the
conversion of computer systems to operate in the year 2000 and beyond. In addition,
we reviewed the accuracy of GSA s rent billing data, the increased use of credit cards
to pay for needed supplies and services, and the adequacy ofprocurement personnel
qualifications.

 We identified over $32 million in financial recommendations on how funds could be
put to better use and in other program savings. In addition, 242 referrals were made
for criminal prosecution, civil litigation, and administrative action. Criminal cases
originating from DIG referrals resulted in 7 successful prosecutions. The GIG also
reviewed 236 legislative and regulatory matters and received 1,384 Hotline calls and
letters. Savings achieved this period from management decisions on audit financial
recommendations, civil settlements, and investigative recoveries totaled over
$45 million.

The GIG also continued its efforts to work closely with GSA management to identifY
and implement sound business management and operational improvements and find
ways to increase the efficiency and effectiveness of the Agency s programs and
operations. We enhanced our offerings of consulting and other value-added services.
We have received a steadily increasing number of requests for these non-traditional
services, reflecting management s acceptance of them as constructive tools helping
them to make sound business decisions. We also continued to provide our more
traditional services to protect the integrity of GSA programs.

I want to take this opportunity to thank the GSA Administrator, GSA s senior
managers, and the Congress for their support. I also want to commend the DIG s
employees for their continued professionalism, dedication, and willingness to accept
new challenges in an environment of ever-increasing demand for both traditional and
non-traditional work products.




WILLIAM R. BARTON
Inspector General

April 30, 1998
    Table of Contents




                                                                        Page

Summary of 010 Performance ..................................... v

Executive Summary ............................................ vi

010 Profile ................................................... 1

Procurement Activities ........................................... 2

Partnering with OSA Management .................................. 6

Reviews of OSA Programs ...................................... 10

Emerging Issues and Concerns .................................... 26

Prevention Activities ........................................... 27

Review of Legislation and Regulations ............................. 29

Statistical Summary of OIO Accomplishments ....................... .31

Appendices

Appendix I - Significant Audits from Prior Reports ................... .39

Appendix II - Audit Report Register. . ............................. .41

Appendix III - Audit Reports over 12 Months Old with Final
 Action Pending ............................................. .51

Appendix IV·· Delinquent Debts ................................... 56

Appendix V - Reporting Requirements ............................. 57




                                                     Office of Inspector General iii
                      Summary of O/G Performance




DIG Accomplishments      October 1, 1997 - March 31, 1998

                         Total fmancial recommendations                                    $32,271,075

                         These include:

                         • Recommendations that funds be put to better use                 $16,383,263

                         • Questioned costs                                                $15,887,812

                         Audit reports issued                                                   107

                         Referrals for criminal prosecution, civil
                         litigation, and administrative action                                  242

Results Attained         Management decisions agreeing with audit
                         recommendations, civil settlements, and
                         court-ordered and investigative recoveries                        $45,323,106

                         Indictments and informations on criminal referrals                      8

                         Cases accepted for criminal prosecution                                12

                         Cases accepted for civil action                                         8

                         Successful criminal prosecutions                                        7

                         Civil settlements                                                       4

                         Contractors suspended/debarred                                         50

                         Employee actions taken on administrative
                         referrals involving GSA employees                                       7




                                                                              Office of Inspector General v
                                          Executive Summary



                                       During this period, we expanded our efforts to provide professional assistance
                                       through enhanced consulting services, and the use of alert reports designed to quickly
                                       inform management of potentially serious deficiencies or other concerns prior to
                                       completion of all analytical work and formal report issuance. These services have
                                       been added while we continue to offer our more traditional services, including
                                       program evaluations, contract and fmancial auditing, internal controls reviews,
                                       investigative coverage, and litigation support in contract claims, civil fraud and
                                       enforcement actions, and criminal prosecutions.

                                       Program/Operational Reviews
                                       The OIG continued its efforts to conduct large-scale reviews of major programs and
                                       operations throughout GSA's various components. During this period, we continued
                                       our review of GSA's efforts to upgrade security at Federal facilities. Based on
                                       concerns raised in our audit work, we issued three alert reports and a separate audit
                                       report to management. These reports addressed inaccuracies in installation status
                                       reporting on security equipment and the misuse of security enhancement funding.
                                       One alert report disclosed that almost $2 million of security equipment purchased for
                                       GSA's enhanced security program was on hand with no immediate plans for
                                       installation (page 11). Another report revealed that security at many of one region's
                                       Federal facilities had not been upgraded to minimally acceptable standards. Also, the
                                       database did not accurately represent the status of the upgrade effort (page 12). The
                                       third alert report covering three other regions stressed the need for GSA to
                                       ensure that security countermeasures at all Federal buildings are accurately reported
                                       and completed (page 13). Furthermore, a review of the use of funds disclosed that
                                       GSA expended approximately $375,000 allocated to security enhancements for other
                                       purposes. Consequently, we recommended that the funds be restored to the security-
                                       upgrading project (page 14). Management has taken positive steps in response to
                                       these reports and is initiating corrective action. We are continuing our review and
                                       will be monitoring the Agency's efforts in this critically important area (page 15).

                                       Other program reviews reported on: findings that a project to ready office space in
                                       connection with the 1997 Presidential Inaugural was inadequately managed and that
                                       project costs exceeded the prospectus threshold requirements in contravention of the
                                       Public Buildings and Antideficiency Acts (page 16); determining which computer
                                       systems are critical and need to be prioritized for conversion to operate in the year
                                       2000; and enhancing the monitoring of GSA's progress for planned system
                                       conversions (page 18). In addition, we made recommendations to improve the
                                       accuracy of GSA's rent billing data (page 20). Furthermore, we reviewed systems
                                       used by hotels and car rental companies to directly bill GSA for employee travel
                                       expenditures. We found that controls are adequate to ensure that GSA only pays
                                       direct-billed charges for lodging and car rentals. However, we did recommend
                                       control improvements to ensure that charges for legitimate business travel, taxes, and
                                       rates are correct, that vendors are not paid twice, and that travelers are not
                                       reimbursed for direct-billed charges (page 23). In another review, we found that the
                                       Agency needs to ensure that the training and experience requirements for
                                       procurement personnel are met (page 23), and needs to include performance
                                       standards as part of the contract administration function (page 24). We also reported




vi Semiannual Report to The Congress
  Executive Summary




in a review of a regional Customer Supply Center that GSA was satisfactorily
meeting customer needs for popular supply items and did so with adequate
controls to protect assets (page 25).

We also evaluated the administration and operation of a regional commercial
facilities management contract, and recommended improvements in the administra-
tion of the contract which would improve services to client agencies and at the same
time lower costs (page 3). In addition, we made recommendations to improve the
management of guard contract services by improving controls over the award process
and ensuring that required training is completed before new guards are allowed to
work (page 4).

We completed three significant internal audits at the request of management. In one
report on contract workload management, we reported that while some improvements
to workload management had been made, further improvements were needed to
automate key activities of scheduling and performance assessment (page 8). The
second report involved a review of a major customer's shipment discrepancy reports.
We found that the GSA customer's receiving and processing procedures contributed
to the numerous adjustment requests (page 8). Our third report supported GSA's
plans to consolidate the Federal Protective Service's various regional security control
center functions into four megacenters, which would allow them to support their
dispatch functions. We did, however, recommend 'a continuation of the regional
dispatch capability to address natural disasters, and pointed out that many alarm
systems still need to be upgraded (page 8).

Consulting Services
At the request of Agency management, we continued to provide our consulting
services to cover a range of GSA activities cutting across all GSA components. We
suggested ways to improve shipping information provided to vendors (page 6);
surveyed realty specialists and client agencies to determine their satisfaction with a
new lease acquisition program (page 6); analyzed procurement practices and sales
data for special order procurements (page 6); and evaluated a performance indicator
and its validity for allocating costs (page 7). In addition, we analyzed financial
reports of prospective vendors seeking award of an electric power contract (page 7);
assessed the accuracy of data within a management information system (page 7); and
examined a GSA payment process to determine whether vendor payments are being
made in a timely manner (page 7).

Procurement Integrity
An important part of our work effort is to provide support to the Agency's contract-
ing officers and to protect the integrity of GSA's procurement programs and
operations by detecting and preventing fraud, waste, and abuse. This period, based
on our audit and investigative work, several private sector contractors agreed to pay a
total of over $4 million to resolve potential civiilliability under the False Claims Act
(page 2). These contractors provided a wide array of products and services, such as
water treatment chemicals for heating and cooling systems, office systems furnitlU'e,
hospital-grade disinfectants, and computer hardware and software. The settlements




                                                          Office of Inspector General vii
                                            Executive Summary



                                         involved allegations that they had misrepresented their commercial discount practices
                                         in seeking and performing under GSA contracts, in violation of the False Claims Act
                                         and other statutory and contractual provisions.

                                         Summary of Results
                                         The OIG made over $32 million in fmancial recommendations to better use
                                         Govemment funds, and in other program costs savings; made 242 referrals for
                                         criminal prosecution, civil1itigation, and administrative actions; reviewed
                                         236 legislative and regulatory actions; and received 1,384 Hotline calls and letters.
                                         This period, we achieved savings from management decisions on fmancial
                                         recommendations, civil settlements, and investigative recoveries totaling $45 million.
                                         See page v for a summary of this period's performance.

                                         Emerging Issues and Concerns
                                         We continue our practice of highlighting emerging issues and matters of particular
                                         concern. One previously reported matter remains of continuing concern: an issue
                                         relating to the Agency's authority to compromise debt, particularly as it relates to the
                                         ability of the Inspectors General to seek authoritative and binding resolutions of legal
                                         disputes with their Agencies (page 26).




viii Semiannual Report to The Congress
                                     O/G Profile




                       The GSA OIG was established on October 1, 1978 as one of the original 12 OIGs
                       created by the Inspector General Act of 1978. The OIGsfive components work
                       together to perform the missions mandated by the Congress.

Organization           The OIG provides nationwide coverage of GSA programs and activities. It consists
                       of:

                       • The Office of Audits, an evaluative unit staffed with auditors and analysts who
                         provide comprehensive audit coverage of GSA operations through program
                         performance reviews, internal controls assessments, and financial and mandated
                         compliance audits. It also conducts external reviews to support GSA contracting
                         officials to ensure fair contract prices and adherence to contract terms and condi-
                         tions. To increase its ability to meet customer needs, the office has added
                         advisory and consulting services to its service offerings.

                       • The Office of Investigations, an investigative unit that manages a nationwide
                         program to prevent and detect illegal and/or improper activities involving GSA
                         programs, operations, and personnel.

                       • The Office of Counsel to the Inspector General, an in-house legal staff that
                         provides legal advice and assistance to all OIG components, represents the OIG
                         in litigation arising out of or affecting OIG operations, and manages the OIG
                         legislative/regulatory review functions.

                       • The Internal Evaluation Staff, an in-house staff that plans and directs field
                         office appraisals and conducts internal affairs reviews and investigations.

                       • The Office of Administration, an in-house staff that provides information
                         systems, budgetary, administrative, persOlmel, and communications services.

Office Locations       The OIG is headquartered in Washington, D.C., at GSA's Central Office building.
                       Field audit and investigations offices are maintained in Boston, New York,
                       Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San Francisco, and
                       Washington, D.C. Sub-offices are also maintained in Auburn, Cleveland, and Los
                       Angeles.

Staffing. and Budget   The OIG started Fiscal Year (FY) 1998 with a total on-board strength of
                       289 employees. As of March 31, 1998, our on-board strength was 280 employees,
                       with recruitment actions underway to bring us to a level of 304.

                       The   ~iG's   FY 1998 budget was approximately $33.8 million.




                                                                                  Office of Inspector General 1
                                      Procurement Activities




                                      GSA is responsible for providing working space for almost 1 million Federal
                                      employees. GSA, therefore, acquires buildings and sites, constructs facilities, and
                                      leases space, and also contracts for repairs, alterations, maintenance, and protection
                                      of Government-controlled space. GSA also operates a Governmentwide service and
                                      supply system. To meet the needs of customer agencies, GSA contracts for billions of
                                      dollars worth of equipment, supplies, materials, and services each year. We review
                                      these procurements both on a preaward and postaward basis to ensure that the tax-
                                      payers' interests are protected.

Significant DIG                       Over $4 Million in Civil Recoveries
Accomplishments                       During this period, the Government entered into 4 settlement agreements in which
                                      companies agreed to pay a total of over $4 million to resolve their potential civil
                                      liabilities under the False Claims Act. These agreements, negotiated by
                                      representatives of the Department of Justice and the GSA OIG, reflect the ongoing
                                      efforts of the OIG to pursue cases involving procurement fraud and other practices
                                      which threaten the integrity of the Government's procurement process.

                                      Many of these cases involved procurements under GSA's Multiple Award Schedule
                                      (MAS) program. Under this program, GSA negotiates contracts with a number of
                                      vendors who may then sell covered products to Federal agencies at established
                                      contract prices. Consistent with the provisions of the Truth in Negotiations Act and
                                      the Competition in Contracting Act, the process is based on the principles of full and
                                      open disclosure and fair negotiations. Vendors must provide current, accurate, and
                                      complete pricing information--including information about discounts granted their
                                      most favored commercial customers--during contract negotiations. Relying on this
                                      information, GSA contracting personnel then seek to obtain the best possible prices
                                      for the Government. In cases where vendors fail to provide current, accurate, or
                                      complete information, the Government may pay artificially inflated prices for
                                      products and services purchased. Highlights of these cases follow.

                                      • A company that supplies water treatment chemicals for heating and cooling
                                        systems and boiler fuel oil additives to Federal customers under an ongoing MAS
                                        contract agreed to pay $1,798,274 to resolve its potential civil False Claims Act
                                        liability. The Government alleged that the company failed to accurately disclose
                                        its commercial discounting policies to GSA negotiators, and, as a result, Federal
                                        customers have been paying too much for the company's products since the
                                        inception of the contract. The OIG audit found that despite disclosures claiming
                                        virtually no regular discounts were offered to any of its commercial customers,
                                        except minimal discounts to its most favored customer, the company actually had
                                        offered numerous high regular discOWlts to many of its customers. The audit also
                                        found numerous examples of price reduction violations--the failure to pass along
                                        to the Government, as required by the contract, reductions in prices granted to
                                        specified customers during the contract period--as well as minor overbillings.

                                      • A company that manufactures office systems furniture agreed to pay $1,250,000
                                        to settle its potential civil False Claims Act liability. The Government alleged that
                                        during negotiations for its MAS contract, the company failed to fully and accu-
                                        rately disclose to GSA negotiators its discounting and pricing practices with its



2 Semiannual Report to The Congress
Procurement Activities




  commercial customers, as required by the contract. The OIG audit revealed that,
  both prior to and during the Federal contract, the company granted numerous
  discounts to its commercial customers which were significantly higher than those
  disclosed to GSA. The settlement was reached after a mediation before an
  independent arbitrator.

• A company that provides hospital-grade disinfectants agreed to pay $989,314 to
  settle the Government's claims that it failed to provide accurate data to GSA when
  it negotiated its MAS contract, overcharged Federal customers, and failed to pass
  along to the Government price reductions granted to commercial customers, as
  required by the contract. The OIG audit and investigation revealed that the
  company had in place, both prior to and during the course of the Government's
  contract, an undisclosed, extensive free goods and credit program which resulted
  in significantly higher effective discounts for many of its commercial customers
  than had been disclosed to GSA negotiators.

• A reseUer of information technology hardware and software agreed to pay
  $400,000 to settle an action brought pursuant to the qui tam provisions of the
  False Claims Act. These provisions allow individuals to bring suit, on behalf of
  themselves and the Federal Government, against contractors who submit false
  claims to the Government. In this case, the private party who originally brought
  the action on behalf of the Government alleged that the company had failed to
  fully disclose the nature and extent of the discounts and rebates it received from
  its suppliers. The OIG audit and investigation confmned the allegations and
  found that the failure to fully disclose resulted in the Government paying more
  than it should have for the company's products. The private party received
  $68,000 out of the total $400,000 paid by the company, as is allowed under the
  False Claims Act.

Commercial Facilities Management Contract
In one region, GSA assumed responsibility for a 1.6 million square foot building on
October 1, 1995, and engaged a contractor to manage the facility. According to a
customer satisfaction survey, there has been an overall improvement in client
satisfaction with the building's operation. However, based on our evaluation, we
found that GSA has an opportunity to further improve services and lower costs.

OUf examination of the administration and operation of the regional Commercial
Facilities Management (CFM) contract, that provides management services in this
building, pointed out that the contractor did not fu,mish all of the equipment
maintenance and janitorial services at the frequencies and quality level required by
the contract. The contractor had no effective quality assurance program in place.
Moreover, it was necessary for GSA personnel to manage some of the day-to-day
operations of the building and perform quality assurance inspections, which were
contractual duties of the contractor. Improved administration of the contract would
have resulted in the expenditure of fewer GSA resources and enhanced services to
the clicnt agencies.




                                                          Office of Inspector General 3
                                      Procurement Activities




                                      During our review, we found that the heating, ventilation, and air conditioning
                                      equipment, and the lighting in the building were unnecessarily operating around the
                                      clock all year long. We issued an alert report to the Regional Administrator on
                                      October 6, 1997 to bring to his immediate attention the opportunity to save over
                                      $700,000 in reduced electricity costs, and to recover a portion of the $2 million of
                                      overtime services costs.

                                      The March 11, 1998 audit report recommended that the Regional Administrator:

                                      • Enforce the terms of the contract.

                                      • Develop an hourly overtime usage rate and charge tenant agencies for additional
                                        services requested.

                                      • Implement a conservation program for the building immediately.

                                      Regional management agreed with our recommendations. The audit is still in the
                                      resolution process.

                                      Guard Services Contract
                                      The use of contract guards is one of the strategies employed by GSA to accomplish
                                      its mission to develop and economically implement security programs for property
                                      controlled by the Agency.

                                      Our evaluation of guard service procurements in one region revealed that GSA needs
                                      to increase management controls over the award process. The contract files do not
                                      meet the minimum documentation requirements established by the Federal
                                      Acquisition Regulation (FAR), and do not, therefore, adequately support price
                                      reasonableness and award determinations. Additionally, new guards are often
                                      allowed to work before completing required training, potentially exposing
                                      Government personnel and property and the public to undue risk.

                                      The March 12, 1998 audit report recommended that the Assistant Regional
                                      Administrator:

                                      • Ensure that the documentation standards mandated in the FAR are met.

                                      • Assure that contractors meet the pre-employment training provisions of the guard
                                        services contract.

                                      Regional management agreed with our recommendations. 1be audit is still in the
                                      resolution process.




4 Semiannual Report to The Congress
Procurement Activities




Theft of Government Property
On December 2, 1997, a member of a volunteer rescue squad was sentenced in U.S.
District Court to 5 years probation and ordered to pay restitution of $10,538 after
pleading guilty to conversion of public property.

The conviction resulted from a joint OIG and Defense Criminal Investigative Service
investigation that was initiated when it was alleged the rescue squad was acquiring
Federal surplus property for the personal use of its members. The investigation
revealed that one of the members of the squad converted for his own benefit Federal
surplus property obtained from a State agency. During the investigation, this
member returned property with a fair market value of $44,442 to that agency.




                                                         Office of Inspector General 5
                                  Partnering with GSA Management




                                      Value-Added Assistance Services
                                      During this period, the GIG continued to provide value-added professional assistance
                                      to GSA through consulting services and standard audit reports. Our expanded
                                      services provide timely and specific information sought by managers for improving
                                      decision-making, program outputs, and mission accomplishment. These efforts not
                                      only help the Agency become more efficient and effective, but provide management
                                      with a faster response through innovative methods to develop and deliver results.
                                      The following highlight the nature and breadth of some of our customer-oriented
                                      services.

                                      Consulting Services. These efforts epitomize a partnering relationship with
                                      management. They are initiated by requests from management, not by the OIG;
                                      management defines and limits the scope of the project. Information objectively
                                      developed by the GIG is provided within a 60-day turnaround response time frame
                                      for the interpretation and discretionary use of the requesting official, and the final
                                      product is distributed to the requesting official only. OUf reports contain no fonnal
                                      recommendations, only observations and alternatives for consideration. Consulting
                                      projects completed this period include:

                                      • Frustrated Freight - The Agency requested that we assist in identifying why a
                                        substantial number of shipments destined for Department of Defense activities
                                        overseas were aniving at consolidation points with no clear indication of the
                                        ultimate consignee. We determined that the cause of this freight problem was
                                        vendors shipping materials with incomplete address information. In our
                                        October 3, 1997 report, we suggested ways to improve shipping instruction
                                        information provided to the vendors. This should not present major difficulties
                                        for GSA, and yet would ensure that shipments can be delivered to the ultimate
                                        consignee.

                                      • Customer Satisfaction with the Advanced Acquisition Program (AAP) - The GIG
                                        was asked to survey realty specialists and client agencies in one region to
                                        determine their satisfaction with AAP, a relatively new program initiated to
                                        expedite the acquisition of leased space under 10,000 square feet. This program's
                                        objective is to fulfill client space needs promptly by using pre-evaluated and pre-
                                        negotiated inventory of space ready for occupancy. Our survey results presented
                                        to management on October 27, 1997 reported that both realty specialists and
                                        customer agencies are generally pleased with the program, particularly the
                                        timeliness of the leasing actions and the quality of the buildings offered under the
                                        program.

                                      • Procurement Practices for Non-Stock Items - Management officials in one region
                                        asked the OIG to determine if the procurement process could be enhanced for high
                                        priced or frequently requisitioned items, which are not held as normal inventory
                                        supply stock and are purchased by special ordering procedures. In addition,
                                        management needed to know what portion of sales were made to the Department
                                        of Defense compared to civilian agencies, and what portion of sales were made to




6 Semiannual Report to The Congress
Partnering with GSA Management




       overseas and to domestic customers respectively. An extensive analysis of the
       Purchase Order Procurement Information Database enabled us to provide the
       information management requested in our report dated November 24, 1997.

    • Performance Indicator of Operating Costs - The OIG was asked to evaluate and
      determine in one region if the performance indicator - operating cost per $100 of
      sales value - could be used as a reasonable basis to allocate identifiable operating
      costs to the division's two primary branches. Our December 5, 1997 study
      concluded that, with some minor modifications, the metric indicator reflects a
      reasonable basis for allocation of costs. After completion of this project, we
      continued to work with regional management, at their request, to develop specifi-
      cations for database queries.

    • Financial-Related Data for Purchase of Electric Power - The OrG was requested
      by a contracting officer in one region to determine whether companies bidding for
      an electric power contract demonstrated any material weaknesses that might
      adversely impact their financial responsiveness in performing the requirements of
      the contract. The Agency's retail purchase of electricity results from ongoing
      deregulation of electric utilities nationwide. Our January 20, 1998 report provided
      an analysis of numerous financial reports to reveal some issues that could have
      future impact on fulfillment of the contract terms and conditions.

    • Accuracy of Management Information System - Management officials in one
      region requested that the OIG assess the accuracy of data within a recently
      implemented management information system. Additionally, management needed
      to know if the system is adequately safeguarded. Our March 25, 1998 report
      concluded that some data inaccuracies do exist in the system and that the data
      security could be strengthened. Because our analysis enabled us to determine the
      reasons for the inaccuracies, we were able to suggest actions to alleviate the
      problem. We also concluded that management must determine the level of system
      security necessary.

     • Timely Payment to Vendors - The OIG was requested by one region's manage-
       ment to examine and document a payment process and determine whether
       payments are being made timely. The payment process involved invoice authori-
       zation, certification and payment procedures flowing between GSA Finance, an
       external data entry facility, and fleet maintenance vendors. Our March 30, 1998
       report concluded that untimely payments were occurring primarily when vendors
       delayed submission of invoices for payment. Upon receipt of timely and valid
       invoices, GSA is promptly paying the vendors within 30 days of receipt of an
       invoice, approximately 95 percent of the time. Although our analysis showed the
       payment process to be effective, we did observe that some potential procedural
       enhancements to the overall process could be made to further streamline
       document and information handling to result in time and cost savings.




                                                               Office of Inspector General 7
                                  Parlnering with GSA Management




                                      Management Requests. In response to requests from GSA managers for reviews,
                                      we performed audits of specific activities of particular concern. During this period,
                                      we issued three standard audit reports that had been initiated at management's
                                      request:

                                          Workload Management - The OIG was requested by GSA management to follow
                                         up on a workload management review performed by our office in 1992. Since
                                         then, a number of organizational changes have been made within the Agency. In
                                         our July 1992 audit, we reported that several procurement personnel assigned to
                                         the Agency's MAS contracting program were overwhelmed by their workloads.
                                         Moreover, management had little information available to assess workloads,
                                         measure individual productivity, or more effectively schedule resources and
                                         monitor progress of work assignments. We also reported that contracting officers
                                         did not have adequate training and procurement reference material to help in
                                         performing their duties.

                                         In our follow-up audit, we determined that while some improvements have been
                                         made, workload measure insufficiencies we previously identified still exist. We
                                         did note, however, that guidance, reference material, and training for the contract
                                         officials has improved.

                                         Our March 30, 1998 audit report recommended that the Commissioner, Federal
                                         Supply Service:

                                         • Ensure that the planned automation contains sufficient data to manage the con-
                                           tracting process.

                                         • Establish goals in order to assess acceptable levels of performance.

                                         The Commissioner agreed with the recommendations in the report. The audit is
                                         still in the resolution process.

                                      • GSA Customer Shipments - Management officials in one region were concerned
                                        that a major customer had filed a large number of shipment discrepancy reports
                                        and requested the OIG to determine why this was happening, and how it could be
                                        controlled. We determined that the customer's receiving and processing
                                        procedures contributed to the numerous adjustment requests. We also established
                                        that a large number of the discrepancy reports submitted were duplicate or
                                        unsupported. The customer has revised its receiving and processing procedures,
                                        which should eliminate invalid discrepancy reports. Therefore, our November 25,
                                        1997 report made no recommendations.

                                      • Megacenter Dispatch Services - The primary functions of regional control centers
                                        are to dispatch Federal Protective Officers in response to emergency situations in
                                        and around GSA-controlled facilities, and to monitor and respond to various types
                                        of property security alarms.

                                         Due to concerns that the control centers' performance levels had degraded over
                                         time because of budgetary and personnel constraints, the Agency initiated an


8 Semiannual Report to The Congress
Partnering with GSA Management




      assessment of the function. The March 1993 consultant's report on GSA's control
      center program concluded that GSA was operating the control centers in a manner
      placing GSA at significant risk because of personnel shortages, conflicting guid-
      ance, inadequate facility maintenance, and outdated hardware/software systems.
      The report suggested that GSA consolidate control center responsibilities to
      achieve appropriate economies of scale, introducing the megacenter concept.
      GSA plans to consolidate most control center functions into four megacenters,
      situated in strategic locations throughout the country. Because the functions to
      remain at the regional dispatch sites are generally incidental in nature, these sites
      will not have to be continuously staffed and may be closed at a later date.

      OUf  review, performed at the request of one Regional Administrator, determined
      that the megacenters will have the capability to effectively perform the dispatch
      functions of the various control centers, thereby obviating the need for regional
      dispatch sites.

      The January 30, 1998 report recommended that the Commissioner, Public
      Buildings Service:

      • Have regions develop appropriate contingency plans to continue the dispatch
        function during natural disasters.

      • Ensure that technological upgrades to alarm systems required for megacenter
        compatibility are identified and accomplished as soon as possible.

      Management concurred with the recommendations. The audit is still in the
      resolution process.




                                                               Office of Inspector Genera! 9
                                       Reviews of ~....,_




                                         GSA is a central management agency that sets Federal policy in such areas as
                                        Federal procurement, real property management, and telecommunications. GSA also
                                        manages diversified Government operations involving buildings management, supply
                                        facilities, real and personal property disposal and sales, data processing, and motor
                                        vehicle and travel management. In addition, GSA manages I97 accounting funds
                                        and provides cross-servicing support for client agencies. Our audits examine the
                                        efficiency, effectiveness, and integrity of GSA programs and operations and result in
                                        reports to management. Our internal audits program is designed to facilitate
                                        management s evaluation and improvement of control systems by identifying areas of
                                        vulnerability and providing informational and advisory services.

Significant OIG                         Security Enhancements                         Federal Bui/dings
Accomplishments                         On April 19, 1995, the Alfred P. Murrah Federal Office Building in Oklahoma City
                                        was destroyed by a bomb. This terrorist act resulted in the death of 168 Federal
                                        employees and visitors, and significant injuries to hundreds of individuals. The next
                                        day, President Clinton directed the Department of Justice (DOJ) to assess the
                                        vulnerability of Federal office buildings in the United States, particularly to acts of
                                        terrorism and other forms of violence. The United States Marshals Service (USMS)
                                        coordinated the study based on its expertise in court security.

                                        The USMS assembled Standards and Profile Committees. The Standards Committee
                                        divided Federal holdings into five security levels and then determined the minimum
                                        standards that could be applied to each level. The levels were established based on
                                        criteria of tenant population, public contact volume, facility size, and agency
                                        sensitivity. The Profile Committee was tasked with surveying existing security con-
                                        ditions at Federal facilities and identifying future security enhancements and related
                                        costs. USMS deputies and GSA physical security specialists conducted the survey.

                                        On June 28, 1995, DOJ issued the Vulnerability Assessment of Federal Facilities
                                        report. DOl's principal conclusion was that the typical Federal facility, at each
                                        security level, lacked some of the elements required to meet the new minimum
                                        standards. DOl's principal recommendation was that, where feasible, each Federal
                                        facility should be brought up to the minimum standards. Depending on the security
                                        level and feasibility of installation, security upgrade countermeasures could include:
                                        x-ray screening of all mail and packages, closed circuit television, perimeter lighting,
                                        contract guards, and magnetometer or x-ray screening at public entrances. DOJ
                                        further recommended that Building Security Committees (BSCs) be established as a
                                        formal mechanism for addressing security concerns at each facility. The BSCs
                                        consist of representatives from all Federal agencies occupying a building, with
                                        assistance provided by a GSA physical security specialist.

                                        In FY 1997, Congress authorized GSA to fund $240 million of Federal building
                                        security enhancements. GSA allocated these funds to its regions based on specific
                                        BSC-requested countermeasures, as documented by each region in the Building
                                        Security Committee System (BSCS). Therefore, if a countermeasure was
                                        recommended by a          approved in the region and put into the BSCS, the region
                                        received funding for the countermeasure from Central Office.




10 Semiannual Report to The Congress
Reviews of GSA Programs




 In FY 1997, the OIG started a review of GSA's upgrading of security at Federal
 facilities. During this review, we noted several items of significant concern which
 we felt warranted innnediate reporting to management. Three alert reports and a
 separate audit report were provided to management in this semiannual reporting
 period. The reports addressed idle security enhancement equipment, inaccurate
 installation reporting status data, and the misuse of enhancement funding. Each is
 discussed below.

 Inventory of Uninstalled Security Equipment
 Almost $2 million of security equipment, purchased for GSA's enhanced security
 program, was in inventory with no innnediate plans for installation. This has
 occurred due to a lack of coordination among GSA security personnel, customer
 agency officials, and connnercial property representatives.

 In July 1997, while performing audit fieldwork for our review of GSA's Security
 Enhancement program, we found that one region had significant amounts of security
 enhancement equipment, including x-ray screening devices, walk-through
 magnetometers, and cameras, stored in two separate rooms in a Federal building in
 Washington, D.C. Most of the items were still sealed in the original packaging. On
 a September 23, 1997 follow-up visit, we found the inventory virtually intact.

 GSA personnel responsible for this stored equipment did not maintain an accurate,
 current, or complete inventory record. In response to our request, we were provided
 with an undated record titled "Inventory," which identified quantities, model
 numbers, a brief item description, and an incomplete list of unit prices. GSA's listing
 only included some camera equipment; the other equipment found in the rooms was
 not documented.

 The regional office did not always consult with customer agencies prior to
 purchasing security equipment. As a result, the inventory includes items which are
 technically unsuitable or do not meet customer agency needs. Due to the lack of
 accountability over the equipment, the region had no current plan to install the items
 in either the originally intended buildings, or other buildings with compatible
 security needs.

 The absence of an appropriate plan is exacerbated by other factors. The storage
 conditions were less than desirable. The rooms were extremely hot and dusty.
 Although original packaging was still in place, the facility was clearly not meant to
 store equipment of this nature. Also, the warranties on several equipment items have
 either already expired or will expire in the near future.

 The DOJ study anticipated that specific security needs would inevitably vary, even
 among those facilities at the same security level, due to local conditions and
 changing circumstances. DOJ recognized that it might not be possible to bring cer··
 tain facilities up to the minimum standards in all areas because of the nature of an
 existing lease, the unwillingness of landlords to modify a lease, or a major stmctural
 problem. That is why BSCs were established as a cmcial component of the security
 enhancement process. Each BSC was directed to determine which of the minimum



                                                           Office of Inspector General 11
                                       Reviews of GSA Programs




                                        standards and optional measures need to be implemented at its facility. In addition,
                                        BSCs were required to address the feasibility of implementation before forwarding
                                        enhancement requests and cost estimates to GSA for assessment. Therefore, equip-
                                        ment purchases should not have been made without input from the BSCs. GSA
                                        surveyed regional offices as to whether they anticipated having a surplus or a deficit
                                        in capital cost funds dedicated to completing BSC-approved countermeasures. Any
                                        reported surplus would be redistributed to regions with projected deficits. This
                                        regional GSA office reported that an additional $6 million would be required to
                                        complete the security enhancements. The accuracy of this assessment is
                                        questionable.

                                        The regional GSA office has advised us that the 25 x-ray units sitting in storage are
                                        now reserved for eventual installation at loading dock bays at a new Federal office
                                        building complex; however, they did not provide any supporting documentation. In
                                        addition, the database for the security enhancement project does not reflect these
                                        countermeasures and GSA officials have not approved the intended course of action.

                                        In view of the Agency's goal, the limited funding resources, expiring warranties,
                                        undesirable storage conditions, and the fact that more purchasing is continuing, we
                                        suggested that the region fully account for the inventory and develop a formal
                                        implementation plan, in conjunction with Central Office, to assure that the equipment
                                        is used as intended. Unneeded equipment could then be made available to meet the
                                        immediate needs of other regional offices.

                                        Our October 1, 1997 report was intended to alert management to a serious problem
                                        requiring immediate attention. We advised the Assistant Commissioner, Federal
                                        Protective Service that the subject matter discussed in this report will be addressed
                                        further in the audit report on the Security Upgrade program. Notwithstanding, we
                                        invited management to provide comments or information regarding our audit
                                        concerns. Since our report was issued, we have been verbally informed that GSA
                                        has earmarked the equipment in storage and stopped purchasing additional items in
                                        an effort to use the inventory. Some equipment may also be available for use by
                                        other regional offices.

                                        Uncompleted Security Countermeasures
                                        In the same region in which we found the stored security equipment, we determined
                                        that the regional GSA office is not meeting its DOl-mandated responsibility to
                                        enhance security in GSA-controlled facilities. The office has been misreporting the
                                        status of security enhancement countermeasures to senior management officials.
                                        Security equipment projects reported as complete and operational were actually
                                        missing, uninstalled, or in storage. This situation has occurred because of a lack of
                                        coordination among GSA security personnel, customer agency officials, and
                                        commercial property representatives, as well as non-adherence to established policy
                                        conceming the enhancement effort. As a result, security at several Government
                                        facilities had not been upgraded to minimally acceptable standards.




12 Semiannual Report to The Congress
Reviews                     Programs




 In a memorandum dated August 27, 1996, the Commissioner, Public Buildings
 Service reaffirmed that "a countermeasure can be counted as completed only when it
 is fully operational." The Commissioner's memo clearly indicated that equipment
 does not represent a completed countermeasure just because it is physically present at
 the site; it must be installed and operational.

 Consequently, the situation in the region cannot be attributed to a misinterpretation of
 guidance. The regional program manager did not ensure that the Commissioner's
 established policy concerning the enhancement effort was followed. Frequently, staff
 entered countermeasures as complete when equipment was delivered to the site.

 The BSCS is the official database used by management to track the progress of the
 security enhancement effort. During our review of security upgrades, we noted
 significant database discrepancies. We compared BSCS status reports to the actual
 conditions in 52 buildings in the region and found differences in 32 locations. At
 these locations, equipment was missing, uninstalled, or in storage, and in many
 instances, was incorrectly identified in the database as having been completed. In
 addition, we located extra equipment not identified in the BSCS.

 On December 11, 1997, we issued an alert report to the Assistant Commissioner,
 Federal Protective Service stating that security at many regional Federal facilities had
 not been upgraded to minimally acceptable standards. In addition, the BSCS data-
 base is not accurately representing the status of the regional security upgrade effort.

 Subsequent to our report being issued, regional management has taken positive steps
 to ensure the accuracy of the reported countermeasures. Agency management has set
 up inspection teams to verify our reported concerns and further review the counter-
 measure status in buildings that were not part of our sample. We have been told that
 the teams identified more discrepancies in the additional buildings reviewed, and that
 the database has been revised to reflect those countermeasures that are incomplete.

 Review Expanded to Additional Regions
 Based on our findings in the region discussed above, we expanded our review to
 include protective security offices in three other regions. At 33 out of 69 buildings
 reviewed, some of the security equipment identified in the security database as com-
 plete and operational was actually missing, uninstalled, or non-operational. We also
 observed instances of unreported security equipment at Federal facilities. As (1 result,
 additional Federal facilities have not been completely upgraded to minimally
 acceptable standards and the project database is inaccurate.

 Based on our analysis and discussions with regional GSA officials, certain counter-
 measures should have been deleted from the database to reflect revised BSC needs or
 alternative measures taken by GSA. The regional officials indicated that they
 encountered problems in making corrections or adjustments during the early stages of
 the enhancement project and therefore elected to enter a completed status for
 canceled countermeasures. They were remiss in not going baek and subsequently
 correcting these completion entries. According to a GSA Central Office official, the
 database always included the capability to make adjustments.



                                                            Office of Inspector General 13
                                       Reviews            GSA Programs




                                        Our review represents a judgmental, rather than statistical sample of countermea-
                                        sures. Therefore, we cannot project the results against the countermeasure universe
                                        for these three regions. In our February 11, 1998 alert report, we stressed the need
                                        for regional GSA security offices and Central Office to take immediate action to
                                        ensure that countermeasures at all Federal buildings are accurately reported and
                                        completed.

                                        Inappropriate Use of Security Enhancement Funds
                                        A regional GSA office expended approximately $375,000 of funds, allocated to the
                                        security enhancement of GSA-owned and leased buildings, on a project that did not
                                        involve BSC-recommended countenneasures. In so doing, GSA violated 31 U.S.c.
                                        § 1301. The region initiated this project to construct a regional control center
                                        without BSC input or approval from GSA Central Office.

                                        As discussed previously, Congress had authorized $240 million to GSA for Federal
                                        building security enhancements. These funds were based on specific BSC-requested
                                        countermeasures.

                                        The initial FY 1997 GSA funding allowance documents issued to the regions stressed
                                        that funds identified for BSC countermeasures were "fenced," that is set aside for
                                        that purpose only. On May 5, 1997, the Chief Financial Officer issued a memoran-
                                        dum to the Public Buildings Service (PBS) Assistant Regional Administrators, which
                                        further set forth the PBS Commissioner's policy that regional funding allowances for
                                        countermeasures were "fenced," without any exceptions.

                                        In December 1996, the region awarded a contract for the construction of a new
                                        regional security control center, uniformed supervisor offices, and locker room
                                        facilities. GSA initially planned to relocate their old control center from another
                                        building under a project that was first initiated in FY 1991, but was delayed due to a
                                        lack of funding.

                                        At the time of award, the contract was funded under the region-wide repair and
                                        alteration allowance. On Apri115, 1997, the contracting officer issued a modifica-
                                        tion, which administratively changed the contract's accounting and appropriation
                                        data. As a result of this change, the contract was now charged against the accounting
                                        classification reserved for costs associated with BSC recommended security counter-
                                        measures.

                                        A regional manager made the decision to charge the project against BSC funds,
                                        stating that without an operational control center all security enhancement initiatives
                                        would have been negated. However, there was no BSC countermeasure covering the
                                        control center project. In addition, the GSA physical security specialist's facility
                                        evaluation assessment of the building made no mention of the control center and the
                                        BSC chairperson was unaware of the project.

                                        Ibe June 1995 DO] report established the BSCs as a crucial component of the
                                        security enhancement process. Each BSC was directed to determine which ofthe
                                        minimum standards and optional measures needed to be implemented at its facility.



14 Semiannual Report to The Congress
Reviews of GSA Programs




 The BSCs also had to address the feasibility of implementation before forwarding
 security enhancement requests and cost estimates to GSA for assessment. Therefore,
 no security enhancement effort should have been initiated without BSC input. In
 addition to bypassing the BSC, the region did not obtain Central Office's concur-
 rence, which security enhancement program guidelines require when a building's
 cumulative security-related capital costs exceed $100,000. Since no countermeasure
 was established, Central Office officials were not afforded the opportunity to review
 the project.

 The region's use ofBSC funds to construct a control center constitutes a violation of
 the provisions of 31 U.S.c. § 1301. This statute states that public funds may be used
 only for the purpose for which they were appropriated. In this case, the control
 center project was not a recommended BSC countermeasure, bypassed the entire
 BSC process, and consequently was not actually allocated any BSC funds. Thus the
 region clearly should not have used BSC funds for the non-BSC related purposes.

 The entire security enhancement effort has reached a point where remaining
 resources are extremely limited. GSA Central Office has surveyed regional offices
 as to whether they anticipate having a surplus or a deficit in capital cost funds
 dedicated to completing BSC approved countermeasures. Any repOlied surplus
 would be redistributed to regions with projected deficits, since GSA does not
 anticipate receiving additional allocations for BSC security measures in future years.

 In view of the statute violation and limited funding resources, we recommended in
 our March 24, 1998 report that the Assistant Commissioner, Federal Protective
 Service request that the region restore the $374,267 of funds to the security
 enhancement project for redistribution to other regions, as necessary.

 The Assistant Commissioner agreed with our recommendation. The report is still in
 the resolution process.

 Review of Security Program Continues
 We are continuing our work in one more region. However, in the four regions
 completed, we have shown that controls for ensuring program implementation are
 ineffective, large numbers of inaccurate data entries have rendered the information
 system unreliable, and most importantly, actual implementation of enhanced security
 countermeasures is well short of what has been reported.

 We believe that because the original implementation process has been shown to be
 deficient, GSA must develop another approach, which includes more effective
 control mechanisms to ensure that the 4,000 individual security enhancement projects
 are properly implemented.

 We have offered to share our available information and insights with management to
 aid them in their corrective efforts. After allowing sufficient time for the Agency to
 implement corrective actions, we will follow up to assess how the corrective actions
 are proceeding.




                                                           Office of Inspector General 15
                                       Reviews of GSA Programs




                                        Prospectus Level Repair and Alteration Work
                                        GSA efforts to ready office space in a Government building in time for the 1997
                                        Presidential Inaugural were inadequately reviewed and managed. Costs on the repair
                                        and alteration project were incurred in excess of the prospectus threshold in
                                        contravention of the Public Buildings and Antideficiency Acts. The OIG had
                                        initiated the review based on allegations of improper funding for work performed on
                                        the project.

                                        The Agency is authorized to provide direct assistance and perform special services
                                        for the Inaugural Committee in connection with presidential inaugural operations and
                                        functions. This includes providing space for personnel and parking, furniture and
                                        equipment, and other incidental services. In past inaugurals, the committees and
                                        affiliated support staff were housed in Government-owned space located at GSA's
                                        Southeast Federal Center. However, anticipating major construction at this center,
                                        GSA chose to use a Federal building located in Suitland, Maryland.

                                        A significant amount of work was necessary to restore the building to operational
                                        status and to ready it for temporary occupancy. Work included:

                                        • repairing and improving utility systems;

                                        • bringing the building up to fire and safety codes;

                                        • restoring restrooms and adding shower facilities;

                                        • renovating with new ceiling tiles, lighting, partitioning, painting, carpeting and/or
                                          floor covering;

                                        • altering office space, windows and the cafeteria;

                                        • paving;

                                        • making roof repairs; and

                                        • adding outdoor canopies and security devices.

                                        To begin work, the region authorized $1.25 million for repairs and alterations, and an
                                        additional $1.5 million in building operations funds to pay for ongoing expenses and
                                        support costs. We found that total costs exceeded $5.6 million, of which over
                                        $3.3 million are attributable to repair and alterations activities. Under the Public
                                        Buildings Act, GSA must file a prospectus and receive Congressional approval for
                                        any building's repair project whose costs exceed stated threshold amounts, which at
                                        the time were $1.67 million. Our report concluded that, at the point when the project
                                        exceeded the prospectus threshold, Congress should have been informed and
                                        requested to approve GSA's spending of additional funds. By continuing to
                                        incur costs against the building without informing Congress and obtaining funding
                                        approval, GSA did not comply with both the prospectus requirements of the Public
                                        Buildings Act and the Antideficiency Act.



16 Semiannual Report to The Congress
Reviews of GSA Programs




 In addition, on-site officials did not follow prescribed procurement procedures in
 acquiring the supplies and services deemed necessary for the renovation. Moreover,
 they did not properly inform regional management of their procurement actions.
 Project officials had been given wide latitude, and focused on readying the building.
 Had more senior management been timely notified, some renovation work might not
 have been approved. Furthermore, because several procurement actions were
 processed through inappropriate channels, we are uncertain that funds used in
 procuring goods and services for this building were reasonably protected against
 fraud or waste.

 Unclear assignments of personnel, poor financial management oversight, and
 imprudent authority delegations all contributed to loss of control over this project.
 TIlrough a series of events that occurred during the renovation project, costs were
 charged to different budgetary accounts that obscured the overall cost of the project
 and thus the need to get approval once the prospectus threshold was reached. The
 responsible funds manager had effectively relinquished direct control of funding for
 the building to the contracting officer.

 In our November 6, 1997 report, we recommended that the Regional Administrator:

 • Report the prospectus level project and the antideficiency violation to the
   Administrator so that he can take the appropriate actions required by the Public
   Buildings and Antideficiency Acts.

 • Take the necessary actions to properly reclassify the associated building costs in
   GSA's financial system.

 • Report all project renovation costs to the Administrator so that he can include
   them in GSA's after-action report for the inaugural event.

 • Establish, with the Chief Financial Officer's assistance, a methodology for
   properly capturing GSA's costs associated with future inaugurals.

 • For future special events impacting the region, initiate a more effective monitoring
   system that will timely alert management to significant variances in projected ver-
   sus actual project costs, and ensure that established procurement procedures are
   followed.

 The Regional Administrator did not concur with the first recommendation, nor did
 the response adequately address the second and final recommendation. The report is
 still in the resolution process.

 Because this report raised issues of possible noncompliance with laws, we suggested
 the matters be reported in the Administrator's Federal Managers' Financial Integrity
 Act (FMFIA) report. The Administrator's 1997 FMFIA report includes a statement
 indicating these matters are under review by the Agency.




                                                           Office of Inspector General 17
                                       Reviews of GSA Programs




                                        Year 2000 Computer Systems Conversion
                                        With the year 2000 fast approaching, computer experts, Government officials, and
                                        private-industry managers are becoming increasingly concerned over whether com-
                                        puter systems will operate correctly with the new century date. Many computer
                                        systems developed years ago assume all dates are in the 1900s and only use the last
                                        two digits of the year to make important date and time calculations such as retire-
                                        ment benefits computations, loan payment schedules, and sales projections. When the
                                        calendar changes to the year 2000, these calculations may be inaccurate, or systems
                                        may not understand the new date and be unable to process transactions.

                                        Over the last 2 years, the President, the Congress, the Office of Management and
                                        Budget (OMB), and the General Accounting Office (GAO) have become increasingly
                                        concerned about year 2000 computer risks and Federal agencies' analysis and
                                        conversion efforts. The President issued an Executive Order on February 4, 1998
                                        which called for the Government to meet the critical challenge to convert its systems
                                        by the year 2000. Congress has held several hearings to assess the status of
                                        agencies' year 2000 conversion efforts, and GAO has issued several reports on
                                        agencies' progress. GAO has designated the year 2000 problem as a high-risk area,
                                        and in July 1997 concluded that agencies need to significantly accelerate their
                                        conversion efforts if widespread system problems are to be avoided as the year 2000
                                        approaches. In May 1997, OMB began requiring Federal agencies to report quarterly
                                        on their year 2000 computer conversion progress.

                                        In September 1996, our office completed an audit of GSA's planning actions to
                                        address year 2000 computer conversion, and found that planning was inadequate to
                                        ensure that all systems are analyzed and converted in time. During this period we
                                        completed another review to assess what progress has been made.

                                        Since our September 1996 audit, the ChiefInformation Officer has established a Year
                                        2000 Focus Group and taken a number of additional actions. Also, Agency Services
                                        and Staff Offices have made some progress in analyzing and converting systems.
                                        Congress has noted that GSA has made more progress than some other Federal
                                        agencies.

                                        Much work remains. GSA's Services and Staff Offices are still assessing: (1) which
                                        systems are critical to GSA operations and should be prioritized for conversion;
                                        (2) how systems should be repaired, replaced, or retired; and (3) what contingency
                                        plans are needed. In addition, the Offices have identified systems as operable in the
                                        year 2000 without adequately testing the systems. Assessment activities need to be
                                        completed to ensure that systems have been adequately analyzed and prioritized,
                                        realistic schedules developed, and resources efficiently allocated so that priority
                                        systems can be converted in time.

                                        Completion of a comprehensive assessment phase is critical to determining the
                                        potential impact of system failures on the Agency's core business areas and
                                        processes, and for prioritizing conversion efforts. GSA reported that it completed




18 Semiannual Report to The Congress
Reviews of GSA Programs




 the assessment phase for its mission-critical systems in June 1997 and has since
 begun the renovation phase. As of the end of our review, the Agency reported that it
 has 58 mission-critical systems.

 Unless GSA completes analyses and conversion of its systems in time, it runs the risk
 of failing to provide important services to customers due to system malfunctions.
 Some systems are already experiencing problems, and others may malfunction in the
 near future if they are not modified or replaced. GSA's Services and Staff Offices
 have made some progress, but are still in the early stages of analysis and conversion.
 Furthermore, conversion schedules have not been adequately developed and
 analyzed. With time running out and staff resources declining, critical management
 decisions are needed now on how to prioritize and convert systems, and assess time
 frames and resources needed to complete analysis and conversion in time.

 Other year 2000 problems still need to be analyzed, such as interfaces between
 systems, computerized building systems (such as security or access systems, fire
 alarm systems, and elevator systems), telecommunication systems, and personal com-
 puters. The Services and Staff Offices have just begun addressing these areas and
 centralized management and coordination is needed.

 In order to avoid system malfunctions, GSA needs to plan all conversion efforts,
 analyze systems code, convert all faulty dates, perform testing, and correct any errors
 found, no later than March 1999, which is OMB's revised deadline for Federal
 agencies to implement converted and replacement systems. This will allow systems
 to run for 9 months before January 1,2000 to ensure that the systems are operating
 correctly and all bugs have been fixed. Performing this large amount of work within
 this narrow time frame will be difficult, particularly with limited staff.

 Our March 31, 1998 report recommended that the Office of the Chief Information
 Officer take the following actions:

 • In conjunction with the Services and Staff Offices, determine systems that are crit-
   ical and need to be prioritized for conversion to operate in the year 2000; evaluate
   and determine the methods, schedules, and resources needed for conversion, and
   develop contingency plans for critical systems that may not be converted in time.
   This evaluation should include:

    • Detailed analysis and conversion schedules for individual systems;

    • Specific conversion or replacement methods to be used; and

    • Time frames and resources required for each system.




                                                           Office ofInspector General 19
                                       Reviews of GSA Programs




                                        • Closely monitor Services and Staff Offices' year 2000 progress against the above
                                          plans and schedules to ensure time frames are being met, computer staff is
                                          efficiently allocated, and additional resources are obtained as appropriate.

                                        • Take steps to manage, coordinate, and accelerate year 2000 computer analysis and
                                          conversion for interfaces between systems, computerized building and
                                          telecommunication systems, and personal computers.

                                        The Chief Information Officer agreed with the recommendations in the report. The
                                        report is still in the resolution process.

                                        Accuracy of Rent Billing Data
                                        The Federal Buildings Fund was established in 1975 to fund the management of the
                                        Agency's owned and leased buildings. GSA receives revenue from user agency
                                        charges for occupying space; these charges are set at commercially comparable rates.
                                        In FY 1997, GSA billed Federal agencies approximately $5.1 billion for almost
                                        300 million square feet of space.

                                        GSA prepares rent bills quarterly. Each bill identifies the building in which space is
                                        assigned, the square footage by space classification, associated joint use space (such
                                        as cafeteria and health rooms), annual rent rates, total amount charged for the quarter,
                                        and any credits or other adjustments from prior periods. The rent billing information
                                        used to prepare bills and to perform other analyses comes from a 20-year-old
                                        computer system. The Agency expects a new system to be operational this fiscal
                                        year.

                                        Because of a widely-held belief in the Public Buildings Service (PBS) that the data in
                                        the information system were inaccurate but the degree of inaccuracy was not known,
                                        we partnered with PBS in a statistically valid review to assist the Agency in reaching
                                        decisions in transitioning to its new information system. This topic was introduced
                                        in the Emerging Issues and Concerns section of our last semiannual report.

                                        To jointly perform this review, by agreement, GSA was responsible for awarding
                                        contracts for the physical verification of space (measuring and classifying space) and
                                        providing real estate staff to participate in the verification process, including the
                                        reconciliation of information back to the information system. The OIG was to plan,
                                        supervise, review, and report on the evaluation. We focused on: accuracy of
                                        information system data elements, impact on the rent income for each building where
                                        discrepancies were found, and the effect on the overall GSA rent revenue position.

                                        Our review found that:

                                        • Space measurements and classifications were inaccurate in approximately half the
                                          tenancies reviewed, which comprised 28 percent of the total square footage
                                          examined.

                                        • Inaccuracies represented a small percentage of the tenants' charges, and over-
                                          charges to one tenant generally were offset by undercharges to another.



20 Semiannual Report to The Congress
Reviews of GSA Programs




 • Inaccuracies totaled approximately $3 million in net underbillings when projected
   to the second quarter billing universe. Although not considered material for
   financial statement reporting purposes, these do represent a potential source of
   additional revenue for the Federal Buildings Fund.

 • GSA arrangements with some client agencies to bill space differently from the
   way it was occupied accounted for another $1 million in underbillings for the
   sample.

 • Rent rates were reasonably accurate and we noted only minor problems with
   tenant identification. Rent rates for the buildings reviewed were supported by
   appraisals, and escalations were reasonably accurate.

 Space discrepancies usually arose from inaccurate reporting of actual square footage
 either through its mismeasurement or misclassification. Comparing system
 information to the actual space measurements disclosed that more than half the
 tenancies reviewed contained total area variances of more than five percent. A
 variety of reasons also contributed to the data inaccuracies: (1) lack of database
 updates to reflect changes in space, (2) misapplication of space classification
 standards, and (3) information system problems. We believe this stemmed from not
 effectively updating information in the system.

 Our report noted that management must determine the amount of resources
 appropriate for detecting inaccuracies and correcting them. Since the financial
 impact of the data reviewed was small, the cost effectiveness of any data correction
 efforts must be considered. Management should also review the special
 arrangements entered into by realty specialists and provide guidance in those areas
 that do not seem to make good business sense. We also cautioned that the data
 elements reviewed may represent only some of many data fields deemed critical to
 GSA's operations and that these additional data fields may also require corrective
 efforts.

 In our February 11, 1998 report, we recommended that the Commissioner, Public
 Buildings Service:

 • Correct revenue-related data, giving full consideration to cost effectiveness.

 • Consider reassessing to whom overall accountability for building and tenant data
   accuracy should be assigned, and linking the maintenance of accurate data as a
   means of assessing results through employee evaluations and/or the Government
   Performance and Results Act processes.            .

 • Adopt a reconciliation process that minimizes the chance that errors or outdated
   information will continue undetected.

 The Commissioner generally agreed with the recommendations in the report. The
 report is still in the resolution process.




                                                           Office of Inspector General 21
                                       Reviews of GSA Programs




                                        IMPAC Credit Card Program
                                        Property Management Centers (PMCs) are increasingly using credit cards as a means
                                        of paying for supplies and services needed in the management of GSA properties.
                                        About 1,200 PMC staff have been issued International Merchant Purchase
                                        Authorization Cards (IMPAC) as part of an effort to streamline operations in a time
                                        of decreasing resources. In FY 1997, the 61,000 credit card transactions totaled over
                                        $25 million. Management has indicated that the use of IMPAC cards will continue to
                                        grow.

                                        The card program has empowered many employees, who previously could not
                                        procure goods and services themselves, with authority to buy items needed to do
                                        their jobs, and quickly satisfy customer needs. However, given the fact that
                                        procurement authority by credit card use has been granted to a wide range of PMC
                                        employees, a degree of control over procurements has been lost. To maintain overall
                                        control, IMPAC guidelines require all employee card transactions be reviewed by
                                        persons designated as "Approving Officials."

                                        The OIG conducted a survey of procurements made by PMCs around the country.
                                        Based on our survey results, we focused this review on controls over the use of the
                                        IMPAC for "micropurchases" (up to $2,500 for supplies, $2,000 for construction
                                        services), the single order limit for most cardholders.

                                        We concluded that, as implemented, current controls do not provide reasonable
                                        assurance that purchases are for valid program needs, are reasonably priced, and are
                                        made following prescribed procurement regulations. Credit card procurements are
                                        deficient in four basic areas: (1) separation of duties - the same person is responsible
                                        for authorizing, processing, recording, and paying for procurements; (2) supervision-
                                        Approving Officials did not sign off on monthly cardholder statements as having
                                        reviewed and approved transactions, as required, or signed off on monthly statements
                                        without adequate documentation to ascertain whether transactions were valid;
                                        (3) purchase documentation - cardholders did not adequately document key decisions
                                        in the procurement process; and (4) transaction recording - data errors were not
                                        corrected timely, resulting in inaccurate accounting data.

                                        This condition occurred as a result of efforts to streamline purchase procedures in
                                        field offices, in a competitive environment, with GSA trying to satisfy its customers'
                                        needs. We found that, to an extent, some controls that were in place were rendered
                                        ineffective by program demands, while others were simply inadequate. As a result,
                                        the Agency is vulnerable to procurement fraud, waste, or mismanagement.

                                        Our January 23, 1998 audit report recommended that the Commissioner, Public
                                        Buildings Service:

                                        • Make the goal of improving management controls a clearly stated priority,
                                          identifying minimal controls that can be presented in a clear, constructive light.




22 Semiannual Report to The Congress
Reviews of GSA Programs




 • Develop a periodic review program of IMPAC card practices and transactions, by
   an entity independent of those being reviewed, to test compliance and effective-
   ness of the controls established.

 • Provide training to increase the awareness of cardholders, Approving Officials,
   and other supervisory persons, clearly outlining what their duties and responsibili-
   ties are.

 The Assistant Commissioner, Office of Business Performance, generally agreed with
 the recommendations in the report. The report is still in the resolution process.

 Direct Bill Lodging and Car Rentals
 GSA initiated the Direct Bill program in 1995 to simplify employees' travel vouchers
 and save travel funds by avoiding state and local taxes. Under the program,
 participating hotels and car rental companies bill GSA rather than the employees for
 charges incurred during official travel. GSA travelers are not required to participate
 in this program, but those who have participated generally like it.

 The most tangible intended benefit of the program is the tax savings that accrue to
 GSA. Because the travel charges incurred under this program are paid directly by
 the Federal Government, they usually are not taxable by State and local governments.
 The savings, however, are partially offset by the additional processing efforts
 required by the Office of Finance and the fund managers throughout GSA. Also,
 GSA does not earn rebates offered by the travel charge card contractor since direct-
 billed charges are not posted to the card. Overall, costs for the Direct Bill program
 exceed its benefits.

 While controls are adequate to ensure that GSA only pays direct-billed charges for
 GSA employees, they do not ensure that charges are for legitimate business travel,
 taxes and rates are correct, vendors are not paid twice, and travelers are not reim-
 bursed for direct-billed charges.

 The purpose of our review was to provide management officials with information
 they can use when considering the future of the program. Therefore, the report dated
 February 17, 1998 contains no formal recommendations.

 Procurement Personnel Qualifications
 GSA strives to be recognized as the Government's leading provider of quality goods
 and services to Federal agencies. To do so, it must ensure that its procurement staff
 is well trained to carry out its mission. The imporlance of training and experience
 requirements was reflected in a provision of the Clinger-Cohen Act which
 established mandatory minimum education standards for procurement personnel.

 GSA established the Contracting Officer Warrant program (COWP) on December 18,
 1979 and, in accordance with the Federal Acquisition Regulation and the General
 Services Administration Acquisition Regulation, established Agency-wide standards
 for selection, appointment, and terrnination of contracting officers. Under COWP,
 procurement personnel receive various levels of formal training in different aspects



                                                           Office of Inspector General 23
                                       Reviews of GSA Programs




                                        of the contracting process. They are expected to complete a specified number of
                                        courses and have a certain level of experience before being appointed as interim or
                                        permanent contracting officers. In response to recommendations contained in a
                                        September 1993 audit report issued by our office, GSA issued detailed training and
                                        experience requirements for the various levels and types of contracting officer
                                        appointments.

                                        We reviewed how COWP was working in one region. The Regional Acquisition
                                        Council implemented a Memorandum of Understanding (MOU), effective
                                        January 18, 1996, that decentralized control of that region's COWP and reduced
                                        some training requirements, significantly deviating from the established Agency
                                        governing policy.

                                        Our review concluded that regional contracting officer appointees were not meeting
                                        the training and experience requirements of the governing policy. In fact, they were
                                        not even meeting the reduced standard that had been established in the MOU.
                                        Additionally, insufficient file documentation was being maintained to support the
                                        appointments made.

                                        The January 22, 1998 report recommended that the Regional Administrator take
                                        action to ensure that:

                                        • All current and future contracting officer appointees complete necessary training
                                          to comply with current GSA policies.

                                        • Procedures are designed and implemented to fully document contracting officer
                                          selections, appointments, training, and terminations.

                                        Responsive management action plans were provided for implementing the report
                                        recommendations.

                                        Service Contracting
                                        An audit of service contracts was performed during this period, in response to Office
                                        of Federal Procurement Policy (OFPP) Letter 93-1 that encourages the OIG to
                                        conduct vulnerability assessments of service contracting. We reviewed management
                                        control procedures over service contracting in one of GSA's services to determine if
                                        the controls over contract award and administration are adequate to prevent abuses
                                        and ensure that contractor performance meets contract requirements and performance
                                        standards.

                                        Our review did not identify any significant risk areas in management controls over
                                        the award procedures for competitively awarded contracts and task orders under both
                                        negotiated and Multiple Award Schedule contracts. However, we found that GSA is
                                        not in total compliance with OFPP Policy Letter 93-1 with regard to inclusion of
                                        defined performance standards as part of the contract administration function. Even
                                        though formal performance measures have not been developed, the Agency has
                                        certain processes in plaee for tracking contractor actions to ensure that customers




24 Semiannual Report to The Congress
Reviews of GSA Programs




 receive quality services. GSA contracting officials are aware of the need for further
 evaluations, and informed us of their current efforts in researching relevant criteria to
 assess the performance of specific types of services.

 We concluded that the existing quality assurance measures mitigate the potential risk
 of GSA not having the means to evaluate and ensure that contractor performance
 meets the user's needs. Accordingly, our February 4, 1998 report did not contain
 formal recommendations.

 Regional Customer Supply Center
 We reviewed a regional Customer Supply Center (CSC) to determine if it meets its
 goal of promptly supplying customer requirements of common use, high demand
 items while exercising adequate management controls to protect its assets.

 The CSCs nationwide are a part of GSA's Stock program. Over 18,000 high demand
 items are available for freight shipment to large customers (the wholesale segment of
 the Stock program) or express delivery of smaller quantities to customers (the retail
 portion of the Stock program). The CSCs are shifting from being a separate supply
 program, distinct from the wholesale stock program, to being a customer-oriented
 ordering system for all 18,000 items the program stocks and distributes.

 We found that the regional CSC was satisfactorily meeting customer needs for
 popular supply items, and did so with adequate management controls to protect its
 assets. The CSC had sales of $15.3 million and stocked over 2,300 items as of the
 end ofFY 1997. While we noted some inventory discrepancies in our review,
 differences were not significant and inventory adjustments resulting from the last two
 physical inventories were within acceptable limits.

 The January 14, 1998 report did not contain formal recommendations.




                                                            Office of Inspector General 25
                                       Emerging Issues and Concerns




                                          The Ability of inspectors General to Resolve Legal
                                          Disputes with Their Agencies
                                          We have had an issue of great concern that has been developing over the last year
                                          relating to the ability of Inspectors General to seek authoritative resolution by the
                                          Department of Justice's Office of Legal Counsel (OLC) of disputes with their
                                          agencies regarding the interpretation and construction of laws and authorities
                                          affecting the operations of the agencies. We believe that this issue has implications
                                          for agencies and their Inspectors General across the Executive Branch, and that it
                                          also raises concerns of frustrating Congressional intent in establishing in the
                                          executive agencies independent Offices of Inspector General charged with identifying
                                          and reporting on such issues. Early last year, after GSA itself declined to do so, we
                                          sought an opinion from OLC regarding the respective authorities of the Department
                                          of Justice and the GSA Administrator to compromise debts of a value exceeding
                                          $100,000. OLC declined to provide an opinion on the grounds that it was not that
                                          office's practice to resolve such "intra-agency" disputes unless asked to do so by the
                                          head of the agency.

                                          We then asked for an advisory opinion from the General Accounting Office (GAO).
                                          Subsequent to that request, the Office of Management and Budget (OMB) undertook
                                          a review of this issue and, on May 19, 1997, the Office of General Counsel of OMB
                                          issued an opinion which supported the Agency's authority to compromise debt. On
                                          December 15, 1997, GAO issued an opinion (B-276550) supporting our position that
                                          the Agency lacked the authority to compromise debt and recommending that the
                                          Agency seek a legal opinion from the Department of Justice if it intended to persist
                                          in its interpretation of its debt compromise authority. We understand that the
                                          Agency, based on the OMB opinion, considers this matter closed.

                                          Faced with conflicting legal opinions from GAO and OMB and because we believe
                                          that OLC is the only entity which is available outside an affected agency to render
                                          authoritative and binding decisions on such legal questions affecting the Executive
                                          Branch, we have asked the Attorney General to review this matter. We particularly
                                          expressed our concern that the declination by OLC to consider requests for legal
                                          opinions from Inspectors General has put this Office, as well as other Offices of
                                          Inspector General, in a potentially untenable position in attempting to fulfill our
                                          statutory responsibilities of independently reviewing and evaluating the programs and
                                          operations of the agencies. To date, this matter is still under review by the Attorney
                                          General.




26 Semiannual Report to The Congress
                            Prevention Activities




                          In addition to detecting problems in GSA operations, the GIG is responsible for
                          initiating actions to prevent fraud, waste, and abuse and to promote economy and
                          efficiency.

Significant Preaward      The OIG's preaward audit program provides information to contracting officers for
                          use in negotiating contracts. The pre-decisional, advisory nature of preaward audits
and Other Audits          distinguishes them from other audits. This program provides vital and current infor-
                          mation to contracting officers, enabling them to significantly improve the
                          Government's negotiating position and to realize millions of dollars in savings on
                          negotiated contracts. This period, the OIG performed pre award audits of
                          37 contracts with an estimated value of $70 million. The audit reports contained
                          over $16 million in financial recommendations.

                          This period, we audited several claims for increased costs allegedly caused by the
                          Government during the construction and renovation of Federal buildings. Four of the
                          more significant audits contained proposed prices totaling $3.8 million, and recom-
                          mended adjustments of $2.6 million. In an audit of a claim for increased costs due to
                          alleged Government caused delays, we advised the contracting officer that the
                          contractor claimed amounts which were not reasonable, allocable, and allowable
                          under the terms of the contract and were not supported by appropriate accounting
                          records. In an audit of another claim, we advised the contracting officer that a
                          subcontractor inflated its regular and overtime shop rates, and was unable to support
                          its proposed costs for shop supervisor and project management labor. In an audit of a
                          claim for increased costs due to alleged design defects, we advised the contracting
                          officer that a subcontractor overstated its claimed costs and was unable to provide
                          sufficient documentation for other costs. Finally, in an audit of a claim for increased
                          costs due to alleged Government caused delays during a renovation project, we
                          advised the contracting officer that the contractor's claim should be adjusted for
                          duplicate costs, costs not allowed by Federal guidelines, and unsupported costs.

Federal Managers'         The Federal Managers' Financial Integrity Act (FMFIA), Section 2, requires GSA
                          management to provide assurance to the President and the Congress that Agency
Financial Integrity Act   resources are protected from fraud, waste, mismanagement, and misappropriation.
Review
                          Each year, we review the Agency's FMFIA process to assess its completeness in
                          reporting known weaknesses and deficiencies. This year, we advised management
                          that the Administrator's assurance statement should have reported the updated status
                          of the issue regarding GSA's legal authority to restructure (compromise) debt for the
                          sale of the Boston Custom House. In 1997, both OMB and GAO issued advisory
                          legal opinions 011 the matter, OMB agreeing with the Agency's position and the GAO
                          finding that GSA did not have the authority to compromise such debts. We believe
                          that the Agency should have acknowledged the differing opinions and indicated that
                          GSA plans no further action on this matter. This issue was first reported in our
                          Semiannual Report to the Congress of April!, 1996 - September 30, 1996.

                          We also reviewed GSA's efforts in carrying out Section 4 of the Act by evaluating
                          the FY 1997 assurance statement concerning financial management systems. We
                          advised management that the statement was complete and adequate.




                                                                                    Office of Inspector General 27
                                         Prevention              ctivities




Integrity Awareness                    The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                       employees on their responsibilities for the prevention of fraud and abuse, and to
                                       reinforce employees' roles in helping to ensure the integrity of Agency operations.

                                       This period we presented 12 briefings attended by 126 regional employees. These
                                       briefings explain the statutory mission of the OIG and the methods available for
                                       reporting suspected instances of wrongdoing. In addition, through case studies and
                                       slides, the briefings make GSA employees aware of actual instances of fraud in GSA
                                       and other Federal agencies and thus help to prevent their recurrence. The briefings
                                       have in fact led to OIG investigations based on reports by GSA employees of
                                       suspected wrongdoing.

Hotline                                The OIG Hotline provides an avenue for concerned employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in GSA-controlled
                                       buildings, as well as brochures, encourage employees to use the Hotline.

                                       During this reporting period, we received 1,384 Hotline calls and letters. Of these,
                                       75 complaints warranted further GSA action, 13 warranted other Agency action, and
                                       1,296 did not warrant action.

Implementation Reviews                 The OIG performs, on a selected basis, independent reviews of implementation
                                       actions to ensure that management's corrective actions in response to OIG
                                       recommendations are being accomplished according to established milestones. This
                                       period, the OIG performed one implementation review and found that all of the
                                       recommendations had been implemented.

Financial Statements                   The Chief Financial Officers Act of 1990 requires the OIG to conduct or arrange for
                                       an annual audit of the GSA consolidated financial statements. The Act also requires
Audit                                  a report on the GSA system of internal accounting controls and compliance with laws
                                       and regulations. An independent public accounting firm performed this audit for
                                       FY 1997 and FY 1996, with oversight and guidance from the OIG. In the audit
                                       report dated February 26, 1998, GSA received unqualified opinions on its financial
                                       statements and on its system of internal accounting controls. The report on the
                                       internal control structure over financial reporting for the consolidated financial state-
                                       ments described one instance of noncompliance with laws and regulations and
                                       reported an update to the status of a 1996 non-compliance issue. Several conditions
                                       affecting other programs or operations were identified where steps should be taken to
                                       strengthen internal controls. None of these was considered material.

                                       The OIG completed limited reviews of the internal controls for two program per-
                                       formance measures, assessing reasonableness of the control structure to generate
                                       reliable performance information as required by the Office of Management and
                                       Budget Bulletin 93-06. We assessed a "low" level of risk over the existence and
                                       completeness of the data supporting one of the performance measures. The internal
                                       control processes used by GSA were not adequate to ensure that the data and systems
                                       supporting the other performance measure existed and were complete. As a result,
                                       the Agency decided not to include the measure in GSA's FY 1997 Annual Report.




28 Semiannual Report to The Congress
Review of Legislation and Regulations




       The Inspector General Act of 1978 requires the OIG to review existing and proposed
       legislation and regulations to determine their effect on the economy and efficiency of
       the Agency s programs and operations and on the prevention and detection offraud
       and mismanagement.

       During this period, the OIG reviewed 192 legislative matters and 44 proposed
       regulations and directives. The OIG provided significant comments on the following
       legislative items:

       • Government Performance and Results Act Technical Amendments of 1997. We
         provided comments to the President's Council on Integrity and Efficiency (PCIE)
         on H.R. 2883, the Government Performance and Results Act Technical
         Amendments of 1997. As set forth in the version the PCIE reviewed, the bill
         would have required agencies to submit periodic strategic and program perform-
         ance plans and would mandate that Offices ofInspector General (OIGs) provide
         independent assessments and audits of these plans. We generally supported the
         bill because we believe it would be beneficial in ensuring agencies' accountability
         for meeting strategic and program goals. We recommended that several
         clarifications be made regarding the obligations of the OIGs. First, we suggested
         that it be made clear that the OIGs are to evaluate the systems that agencies them-
         selves use to assess their compliance with their stated goals, rather than the
         systems used to formulate strategic goals in the first instance. Second, we asked
         that language be added to explain the scope and schedule of the audits to be
         performed by the OIGs. We also pointed out that the bill assigns significant new
         obligations to the OIGs that will require an extensive commitment of resources.
         We understand that our concerns, together with concerns raised by other OIGs,
         were forwarded by the PCIE to the House Government Reform and Oversight
         Committee and were considered in a revised version of the bill.

       • The Fair Competition Act of 1998 and The Competition in Commercial Activities
         Act. These bills are revised versions of the Freedom from Government
         Competition Act, H.R. 716 and S. 314, upon which we commented in the past.
         They would require that Government agencies conduct competitions among
         private and Government-sector sources for all activities classified as commercial.
         We agree that functions currently performed by the Government should be
         transferred to the private sector when it makes both policy and economic sense to
         do so. Our concerns with these bills are three-fold. First, we are not convinced
         that they give sufficient consideration to the costs, such as the disruption to
         agency operations, caused by contracting out. Second, in their current form, the
         bills do not allow for the possibility that some activities that are currently
         contracted out may actually be performed more efficiently or inexpensively by a
         Government source. Third, we expressed our concern about the methodology
         proposed to be used to assess the direct and indirect costs of an agency's
         performance of a given activity.

       In addition, the GIG provided comments on the following regulatory item:

       • Draft Regulation Public Availability of Agency Records and Informational
         Materials. We commented on GSA's proposed amendment to its Freedom of


                                                                Office of Inspector General 29
                              Review of Legislation and Regulations




                                       Information Act regulation to incorporate the requirements of the Electronic
                                       Freedom of Information Act Amendments of 1996. We identified several areas
                                       where we believe the proposed regulation did not conform with the requirements
                                       of the statute and suggested language to bring it into compliance. We also noted
                                       that the proposed regulation did not provide for multitrack processing of requests
                                       and suggested that this requirement be incorporated into the new regulation.




30 Semiannual Report to The Congress
                     Statistical Summary of OIG Accomplishments




                                       Audit Reports Issued
                                       The OIG issued 107 audit reports. The 107 reports contained financial recommenda-
                                       tions totaling $32,271,075, including $16,383,263 in reconunendations that funds be
                                       put to better use and $15,887,812 in questioned costs. These dollar amounts include
                                       $96,832 in financial recommendations for a report issued to another agency. Due to
                                       GSA's mission of negotiating contracts for Govemmentwide supplies and services,
                                       most of the recommended savings that funds be put to better use would be applicable
                                       to other Federal agencies.

                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring management
                                       decisions during this period, as well as the status of those audits as of March 31,
                                       1998. Fourteen reports more than 6-months old were awaiting management
                                       decisions as of March 31, 1998; all of them were preaward audits, issued before
                                       February 10, 1996, which are not subject to the 6-month management decision
                                       requirement. Table 1 does not include 5 reports issued to other agencies this period,
                                       and 23 reports excluded from the management decision process because they
                                       pertain io ongoing investigations.


                          Table 1. Management Decisions on OIG Audits
                                                                                Reports with                 Total
                                                             No. of               Financial                Financial
                                                            Reports           Recommendations          Recommendations

For which no management decision
had been made as of 10/1/97
  Less than 6 months old                                       44                     32                     $19,543,921
  More than 6 months old                                       18                     16                       4,710,607
Reports issued this period                                    102                     45                      32,174,243
TOTAL                                                         164                     93                     $56,428,771

For which a management decision
was made during the reporting period
  Issued prior periods                                         48                     36                     $21,563,019
  Issued current period                                        75                     28                      23,225,268
TOTAL                                                         123                     64                     $44,788,287

For which no management decision
had been made as of 3/31/98
  Less than 6 months old                                       27                      17                     $8,948,975
  More than 6 months old                                      1.1                     12                     _~,691,509
TOTAL                                                          41                     29                     $11,640,484




                                                                                                Office ofInspector General 31
                        Statistical Summary of DIG Accomplishments




                                        Management Decisions on Audit Reports with
                                        Financial Recommendations
                                        Tables 2 and 3 present the audits identified in Table 1 as containing fmancial
                                        recommendations by category (ftmds to be put to better use or questioned costs).




                         Table 2. Management Decisions on OIG Audits with
                          Recommendations that Funds be Put to Better Use

                                                                      No. of                        Financial
                                                                  n
                                                                  ""t:PUll"                     Recommendations

 For which no management decision had
 been made as of 10/1/97
   Less than 6 months old                                              27                         $13,650,936
   More than 6 months old                                              16                           4,710,607
 Reports issued this period                                            30                          16,286,431
 TOTAL                                                                 73                         $34,647,974

 For which a management decision was
 made during the reporting period
   Recommendations agreed to by
   management based on proposed
   -management action                                                                              $27,108,551
   ·legislative action
   Recommendations not agreed to
  by management                                                                                        854,130
 TOTAL                                                                 49                          $27,962,681
 For which no management decision had
 been made as of 3/31/98
   Less than 6 months old                                               12                         $ 3,993,784
   More than 6 months old                                               12                           2,691,509
 TOTAL                                                                 24                          $ 6,685,293




32 Semiannual Report to The Congress
                    Statistical Summary of OIG Accomplishments




                          Table 3. Management Decisions on OIG Audits
                                     with Questioned Costs

                                                                  No. of                       Questioned
                                                                 Reports                         Costs

For which no management decision
had been made as of 10/1/97
  Less than 6 months old                                              5                       $ 5,892,985
  More than 6 months old                                              o                                  o
Reports issued this period                                           15                        15,887,812
TOTAL                                                                20                      $21,780,797
For which a management decision
was made during the reporting
period
  Disallowed costs                                                                           $16,472,104*
  Costs not disallowed                                                                         1,851,958
TOTAL                                                                15                      $18,324,060**
For which no management decision
had been made as of 3/31/98
  Less than 6 months old                                              5                       $ 4,955,191
  More than 6 months old                                              o                                  o
TOTAL                                                                 5                       $ 4,955,191

*$4,437,588 of this amount was recovered in civil settlements, as reported in Table 5.
**lncludes $1,498,456 that management decided to seek that exceeded recommended amounts.




                                                                                           Office of Inspector General 33
                        Statistical Summary of DIG Accomplishments




                                          Investigative Workload
                                          The OIG opened 162 investigative cases and closed 157 cases during this period. In
                                          addition, the OIG received and evaluated 70 complaints and allegations from sources
                                          other than the Hotline that involved GSA employees and programs. Based upon our
                                          analyses of these complaints and allegations, OIG investigations were not warranted.

                                          Referrals
                                          The OIG makes criminal referrals to the Department of Justice or other authorities
                                          for prosecutive consideration and civil referrals to the Civil Division of the
                                          Department of Justice or U.S. Attorneys for litigative consideration. The OIG also
                                          makes administrative referrals to GSA officials on certain cases disclosing
                                          wrongdoing on the part of GSA employees, contractors, or private individuals doing
                                          business with the Government.


                                       Table 4. Summary of OIG Referrals
             Type of Referral                                Cases                                     Subjects
             Criminal                                          24                                          57
             Civil                                             12                                          18
             Administrative                                    91                                         167
             TOTAL                                            127                                        242

                                          In addition, the OIG made 13 referrals to other Federal activities for further investi-
                                          gation or other action and 31 referrals to GSA officials for informational purposes
                                          only.

                                          Actions on OIG Referrals
                                          Based on these and prior referrals, 12 cases (24 subjects) were accepted for criminal
                                          prosecution and 8 cases (13 subjects) were accepted for civil litigation. Criminal
                                          cases originating from OIG referrals resulted in 8 indictmentslinformations and
                                          7 successful prosecutions. OIG civil referrals resulted in 8 cases being accepted for
                                          civil action and 4 case settlements. Based on OIG administrative referrals,
                                          management debarred 33 contractors, suspended 17 contractors, and took 7 personnel
                                          actions against employees.




34 Semiannual Report to The Congress
                      Statistical Summary of OIG Accomplishments




                                          Monetary Results
                                          Table 5 presents the amounts of fines, penalties, settlements, judgments, and
                                          restitutions payable to the U.S. Government as a result of criminal and civil actions
                                          arising from OIG referrals.

                                          In addition, the OIG identified $1,398,188 for recovery during the course of its
                                          investigations, predominately from seizure of diverted Federal surplus property.



                                  Table 5. Criminal and Civil Recoveries
                                                                   Criminal                              Civil

           Fines and Penalties                                   $344,263                         $

           Settlements and Judgments                                                               4,437,588     *
           Restitutions

           TOTAL                                                 $344,263                        $4,437,588

*This amount is reportable pursuant to section 5(a)(8) of the Inspector General Act as management decisions to disallow
costs. See Table 3.




                                                                                                      Office of Inspector General 35
APPENDICES
                     Appendix I .. Significant Audits from Prior Reports




Under the Agency audit management decision process, the               Administration of Real Estate Taxes
GSA Office of Management and Workplace Programs, Office
                                                                      Period First Reported: Aprill, 1997 to September 30, 1997
of Management Services, Administrative Policy and
Information Management Division, is responsible for tracking          The review examined the real estate tax administration of
implementation of audit recommendations after a management            GSA's leases. The report contained two recommendations; they
decision has been reached. That office fumished the following         have not yet been implemented.
status information.
                                                                      Both recommendations involve developing and implementing
                                                                      revised procedures, internal controls, and lease terms. They are
Twelve audits highlighted in prior Reports to the Congress have       scheduled for completion by May 15, 1998.
not yet been funy implemented; all are being implemented in
accordance with currently established milestones.                     Personal Properly Donation Program
                                                                      Period First Reported: April 1, 1997 to September 30, 1997
Federal Protective Service
                                                                      A review at a State agency identified the need to improve con-
Investigation Office                                                  trols to properly account for all personal property. The report
Period First Reported: April 1, 1997 to September 30, 1997            contained seven recommendations; six have been implemented.

The evaluation focused on a review of the Federal Protective          The recommendation involves ensuring that the State reim-
Service's criminal investigation activities. The report contained     burses GSA the $19,120 from its auction sale. It is scheduled
five recommendations; they have not yet been implemented.             for completion by May 15, 1998.

The recommendations include establishing measurable per-              Inventory Cost Management
formance standards; improving program accountability; issuing         Period First Reported: April 1, 1997 to September 30, 1997
clear direction regarding authority limits; establishing a central-
                                                                      A review of the program management systems noted that
ized training system and strengthening the coordination of the
                                                                      improvements were needed in the mathematical variables and
Intelligence Sharing program; and considering adoption of             calculation methodologies used to compute the economic order
benchmarked best practices on a national basis. They are              quantity (EOQ). The report contained three recommendations;
scheduled for completion between May 15, 1998 and                     two have been implemented.
August 15, 1998.
                                                                      The remaining recommendation involves improving the accu-
Regional Reinvention Lab                                              racy and reliability of EOQ to reduce inventory levels and
                                                                      operating costs. It is scheduled for completion by July 15,
Period First Reported: April 1, 1997 to September 30, 1997            1998.
The review identified opportunities for improvement in a
regional reinvention lab. The report contained three recom-
                                                                      Federal Acquisition Services for
mendations; two have been implemented.
                                                                      Technology Program
                                                                      Period First Reported: April 1, 1997 to September 30, 1997
The remaining recommendation involves assuring that the
                                                                      The review identified oppcrtunities for improving the overall
levelsl of authority of the contracting officer representatives are   management of GSA's program designed to quickly procure
established for all contract types. It is scheduled for completion    off-the-shelf computer products and services. The report
by May 15, 1998.                                                      contained two recommendations; one has been implemented.




                                                                                                        Office of Inspector General 39
                    Appendix I - Significant Audits from Prior Reports




The remammg recommendation involves developing and                Stock Program Management
implementing a business plan, covering operations and mar-
keting for the program. It is scheduled for completion by         Information System
October 15, 1998.                                                 Period First Reported: October 1, 1995 to March 31, 1996
                                                                  The review identified opportunities for improvement in the
Telecommuting Centers
                                                                  accuracy and reliability of information provided to stock
Period First Reported: October 1, 1996 to March 31,1997           program managers. The report contained four recommen-
The review focused on GSA's role in the Federal Government's      dations; two have been implemented.
telecommuting initiatives, and the recovery of costs and the
methods being used to recover costs. The report contained two     One recommendation involves improving the accuracy and
recommendations; one has been implemented.                        reliability of computerized lead time projections and is sched-
                                                                  uled for completion by April 15, 1999. The other recommen-
The remaining recommendation involves developing billing          dation requires the continued development of an information
rates to recover costs and developing a mechanism for billings.   system. It is scheduled for completion by May 15, 1998.
It is scheduled for completion by April 15, 1998.
                                                                  Aircraft Management
Debarment Program
                                                                  Period First Reported: October 1, 1995 to March 31, 1996
Period First Reported: October 1, 1996 to March 31, 1997
                                                                  The review identified opportunities for improvement in the
The review identified opportunities for improving the debar-
                                                                  GSA program for assisting civilian agencies with the man-
ment program. The report contained two recommendations;
                                                                  agement and cost effectiveness of their aircraft operations.
they have not yet been implemented.
                                                                  The report contained five recommendations; four have been
One recommendation involves modifying the new contractors'        implemented.
performance database and is scheduled for completion by
July 15, 1998. The other recommendation involves providing        The remaining recommendation concerns the identification of
debarment program training to contracting officers and is         aircraft data necessary for making informed decisions and is
scheduled for completion by May 15, 1998.                         scheduled for completion by March 15, 1999.

PBS Information Systems Strategy                                  Federal Protective Service
Period First Reported: April 1, 1996 to September 30, 1996        Period First Reported: October 1, 1993 to March 31, 1994

The review identified the importance of defining, planning, and   Two OIG reviews found that GSA needed to strengthen its
coordinating the procurement of new information systems. The      control over firearms and improve internal security. One report
report contained two recommendations; one has been                was implemented as of September 30, 1994. The remaining
implemented.                                                      report contained 14 recommendations; 13 have been imple-
                                                                  mented.
The remaining recommendation requires ensuring that the GSA
pilot systems and planned software initiative are technically     The remaining recommendation involves making improve-
compatible and are not duplicative. It is scheduled for           ments to the security system. It is scheduled for completion
completion by June 15, 1998.                                      by May 15, 1998.




40 Semiannual Report to The Congress
                                  Appendix /I .. Audit Report Register

                                                                                                  Financial
                                                                                              Recom m endations
                                                                                        -Fundsto------------(fu-estioned
Date of          Audit                                                                  Be Put To         (Unsupported)
Report           Number                       Title                                     Better Use            Costs


(Note: Because some audits pertain to contracting award or actions which have not
yet been completed, the financial recommendations to these reports are not listed in
this Appendix.)
PBS Management Consulting Reviews
10/27/97         A73029        Consulting Service Review of Customer Satisfaction
                               with the Advanced Acquisition Program

01120198         A80308        Management Consulting Services: Review of Financial-
                               Related Data Submitted in Response to Solicitation for
                               Purchase of Electric Power in Region 1, Solicitation
                               Number GS-OIP-97-BWD-0053

03/25/98          A80302       Management Assistance Review, Accuracy of the Real
                               Estate Activity Link, Management Information System,
                               Office of Property Disposal

FSS Management Consulting Reviews
10/03/97          A72480       Management Assistance Review of Frustrated Freight,
                               Federal Supply Service

11124197          A82102       Management Assistance Review of Region 7's Procure-
                               ment Practices for FSS Non-Stock Items

12/05/97          A71548       Consulting Report: Review of the Great Lakes Region
                               Contract Management Division Performance Indicator
                               of Operating Cost Per $100 of Sales Value

03/30/98          A82114       Management Assistance Review of Region 7's Pay-
                               ments to Vendors for Fleet Management Purchases

Other Management Consulting Reviews
03/20/98          A82111       Management Assistance Review of Human Resources
                               Staffing Levels

PBS internal Audits
10/02/97          A70659       Report on Inventory of Un installed Security Equipment
                               in NCR

10/06/97          A71549       Review of Energy Management Audit of Commercial
                               Facilities Management Contract, Major General Emmett
                               1. Bean Center, Indianapolis, IN



                                                                                                Office of Inspector General 41
                                 Appendix 1/ - Audit Report Register

                                                                                               Financial
                                                                                          Recom m endations
                                                                                     Funds to            Questioned
Date of         Audit                                                               Be Put To         (Unsupported)
Report          Number                       Title                                  Better Use             Costs


11/06/97         A73009       Audit of GSA Expenses to Ready the Suitland,
                              Maryland Federal Building No. 2 for Temporary
                              Occupancy

11/25/97         A73027       Limited Review of IMPAC Purchase Card Usage

12/11197         A80613       Report on Uncompleted NCR Security Upgrade
                              Countermeasures

12/12/97         A72130       Review of Lease Payment Accuracy, Western Bank
                              Building, Region 7

01/23/98         A70302       Management Control Review, Public Buildings Serv-
                              ice, Property Management IMPAC Credit Card
                              Program

01/30/98         A72443       Audit of the Megacenter Program, Federal Protective
                              Service, Public Buildings Service

02/11198         A73311       Audit of the Accuracy of PBS Rent Billings in GSA
                              Owned and Leased Buildings

02111198         A80615       Report on Uncompleted Security Upgrade Counter-
                              measures in Regions 1,4 and 7

03111198         A71522       Audit of Commercial Facilities Management Contract,
                              Major General Emmett J. Bean Center, Indianapolis,
                              Indiana

03112/98         A72473       Audit of Guard Service Contract Awards, Federal
                              Protective Service, Pacific Rim Region

03/24/98         A80616       Audit of Countermeasure Funding in Region 1

          Contract Audits
10102/97         A72478       Audit of Claim for Increased Costs: Gonzales
                              Construction Company Inc., Contract Number GS-
                              08P-95-JAC-OOO 1

10103197         A73031       Preaward Audit of Change Order Proposal: Turner
                              Construction Company, Subcontractor to BPT Metro
                              View Assocs., L.P., Contract Number GS-IIP91AQC-
                              0060




42 Semiannual Report to The Congress
                      Appendix II ~ Audit Report Register

                                                                                      Financial
                                                                                  ReCall II endations
                                                                                   to          ~~-~~:~~"--C:-~~~--;;-"~




Date of    Audit                                                             Be Put To         (U nsu pported)
Report     Number                  Title                                     Better Use             Costs


10/06/97   A71859   Audit of Labor and Overhead Rates: JMAC General
                    Construction Company, Subcontractor to Morse Diesel
                    International, Inc., Contract Number GS06P95GZC0501

10/08/97   A72487   Limited Scope Preaward Audit of Proposed Overhead
                    and Direct Labor Rates: William 1 Yang & Associates,
                    Solicitation Number GS-09P-96-KTD-0011

10/23/97   A70655   Preaward Audit of a Delay Claim: Demon Plumbing and
                    HVAC, Inc., Subcontractor to Beacon/Pro Con Joint
                    Venture, Contract Number GS-02P-94-CUC-0070(N)

10/23/97   A72486   Audit of Claim for Increased Costs: Mountain Gravel
                    & Construction Co., Subcontractor to Gonzales
                    Construction Company, Inc., Contract Number GS-08P-
                    95-JAC-000 1

10/24/97   A70660   Preaward Audit of a Change Order Proposal: Beacon/
                    Pro Con Joint Venture, Contract Number GS-02P-94-
                    CUC-0070(N)

10/24/97   A71860   Audit of Proposed Rates: The Clark Construction Group,
                    Inc., Contract Number GS06P96GZC0508

10/27/97   A70653   Preaward Audit of Change Order Proposal: Pipeline
                    Construction, Inc., Contract Number GS-02P-CUC-
                    0038

10/31/97   A83002   Limited Scope Preaward Audit of Change Order
                    Proposal: Grunley Construction Co., Inc., Contract
                    Number GS-I1P-97MKC-0009

11112/97   A70656   Preaward Audit of a Delay Claim: lC. Higgins Corp.,
                    Subcontractor to Beacon/Pro Con Joint Venture,
                    Contract Number GS-02P-94-CUC-0070(N)

11119/97   A70630   Postaward Audit of Small Business Subcontracting Plan:
                    Turner Construction Company, Contract Number GS-
                    02P-95-DTC-OO 14(N)

11120/97   A83004   Preaward Audit of Sole Source Contract: Gilford
                    Technology Corporation, Contract Number GS-IIP-
                    97MKC0063




                                                                                     Office of Inspector General 43
                                 Appendix II Audit Report Register
                                                     B




                                                                                                 Financial
                                                                                      -.-~
                                                                                            Recommendations
                                                                                             --.------"---"~-~".---~----.-----




                                                                                       Funds to            Questioned
Date of         Audit                                                                 Be Put To         (Unsupported)
Report          Number                       Title                                    Better Use             Costs


12/09/97         A81806       Postaward Audit of Incurred Costs: Cross Janitorial
                              Service, Contract Number GS06P96GXCO 100

12/10/97         A81S12       Preaward Audit of a Claim for Increased Costs: Don-
                              Lee, Inc., Subcontractor to D.L. Woods Construction
                              Inc., Contract Number GSOSP91 GBCOOS7

12/16/97         A72493       Preaward Audit of a Termination for Convenience
                              Settlement Proposal: Crown Tank Cleaning Services,
                              dba AIRO Services, Contract Number GS-lOP-96-
                              LTC-OOSO

12/16/97         A81208       Preaward Audit of Small Business Administration
                              8(A) Pricing Proposal: Kan Klean Janitorial Services,
                              Inc., Solicitation Number GS-04P-97-RDC-0006

12122/97         A73606       Audit of Claim for Increased Cost: W.M. Schlosser
                              Company, Inc., Contract Number GS-03P-93-DXC-
                              0044

12/24/97         A80602       Preaward Audit of a Delay Claim: Dan Lepore and
                              Sons, Inc., Subcontractor to Beacon/Pro Con Joint
                              Venture, Contract Number GS-02P-94-CUC-0070(N)

12/31/97         A8300S       Preaward Audit of Claim for Increased Costs: Twigg
                              Corporation, Contract Number GS-I1P-94MKC-0069

01112/98         A80604       Preaward Audit of a Delay Claim: Able Finishing,
                              Inc., Subcontractor to Beacon/Pro Con Joint Venture,
                              Contract Number GS-02P-94-CUC-0070(N)

01112/98         A80608       Preaward Audit of a Delay Claim: Beacon/Pro Con
                              Joint Venture, Contract Number GS-02P-94-CUC-
                              0070(N)

01/1S/98         A80606       Limited Postaward Audit of Direct Labor Rates:
                              Yorkshire K.C., LLC, Lease Number GS-02B-2291S

02/0S/98         A80609       Preaward Audit of a Delay Claim: The Woodworks
                              Architectural Millwork, Inc., Subcontractor to
                              Beacon/Pro Con Joint Venture, Contract Number GS-
                              02P-94-CUC-0070(N)




44 Semiannual Report to The Congress
                      Appendix 1/ .. Audit Report Register

                                                                                         Financial
                                                                               - --
                                                                               ~
                                                                                    Recommendations
                                                                                   -~-~--~---~---.-.---.-."---------~-.-




                                                                               Funds to            Questioned
Date of    Audit                                                              Be Put To         (Unsupported)
Report     Number                  Title                                      Better Use             Costs


02/09/98   A81522   Preaward Audit of a Claim for Increased Costs:
                    Kirkhoff Mechanical, Inc., Second Tier Subcontractor
                    to D.L. Woods Construction Inc., Contract Number
                    GS05P91 GBC0057

02111198   A80607   Preaward Audit of a Claim: Beacon/Pro Con Joint
                    Venture, Contract Number GS-02P-94-CUC-0070

02113/98   A80611   Postaward Audit of Sm all Business Subcontracting Plan:
                    Turner Construction Company, Contract Number GS-
                    02P-95-DTC-OO 14(N)

02113/98   A81814   Audit of Proposed Overhead Rate: Borchman Construc-
                    tion Co., Subcontractor to The Clark Construction
                    Group, Inc., Contract Number GS06P96GZC0508

02/23/98   A82418   Preaward Audit of a Claim for Increased Costs: Walters
                    & Wolf, Subcontractor to Hoffman Construction
                    Company of Oregon, Contract Number GS-IOP-94-
                    LTC-0041

02127/98   A81523   Pre award Audit of a Claim for Increased Costs: Colors
                    Decorating Company, Inc., Subcontractor to D.L.
                    Woods Construction, Inc., Contract Number GS05P-
                    91GBC0057

02127/98   A83014   Audit of Claim for Increased Costs: Turner Construction
                    Company, Contract Number GS-llP91AQC0060

03/05/98   A80612   Preaward Audit of a Claim: Beckman Construction
                    Company, Contract Number GS-03P-92-CDC-0335

03/05/98   A81513   Audit of Real Estate Tax Adjustments: Tishman
                    Speyer Properties, Multiple Leases at Building
                    Number ILl 894ZZ

03117/98   A83016   Pre award Audit of Change Order Proposal: Turner Con-
                    struction Company, Subcontractor to BPT MetroView
                    Assocs., L.P., Contract Number GS-IIP91AQC0060




                                                                                          Office of Inspector General 45
                                 Appendix /I ~ Audit Report Register


                                                                                                Financial
                                                                                           Recom m endations
                                                                                     -------------.--~.----




                                                                                     Funds to             Questioned
Date of         Audit                                                                Be Put To         (Unsupported)
Report          Number                       Title                                   Better Use             Costs


03119/98         A81515       Audit of Claim for Increased Costs: Herman B. Taylor
                              Construction Company, Contract Number GS-07P-92-
                              HUC-OOI7

03/30/98         A81525       Audit of Real Estate Tax Escalations, American Na-
                              tional Bank, Trustee, Lease Number GS-05B-l4966,
                              Tax Years 1992 Through 1995

FSS Internal Audits
11/25/97         A71217       Audit of FSS Sales to Lions Club Industries, Inc.,
                              Durham, North Carolina

11/28/97         A 71841      Review of GSA's National Travel Management
                              Services Contract

01114/98         A72482       Audit of the Customer Supply Center, Auburn,
                              Washington

02/04/98         A83008       Audit of Service Contracts

02/27/98         A81519       Review of Customer Complaint Regarding SF 82,
                              Agency Report of Motor Vehicle Data

03/30/98         A83007       Follow-Up Review of the Contract Workload Man-
                              agement

FSS Contract Audits
10/02/97         A70914       Limited Scope Postaward Audit of Multiple Award                             $1,029,760
                              Schedule Contract: JLG Industries, Inc., Contract
                              Number GS-07F-3576A, for the Period August 1,
                              1993 Through May 31, 1997

10110/97         A72484       Postaward Survey of Multiple Award Schedule
                              Contract: Truetime, Inc., Solicitation Number FCGS-
                              Y5-95-0042-B-N, for the Interim Period April 1,
                              1996 Through September 30, 1996

10/29/97         A72479       Price Adjustment on MAS Contract: Robbins
                              Scientific Corporation, Contract Number GS-24F-
                              1360C, for the Interim Period June 1, 1996 Through
                              November 30, 1996




46 Semiannual Report to The Congress
                       Appendix II .. Audit             _""".-.ro    Register


                                                                                       Financial
                                                                                   Recom m endations
                                                                              Funds   to-~---Quesiion-e(f-

Date of     Audit                                                             Be Put To         (Unsupported)
Report      Number                  Title                                     BeHer Use             Costs


10129/97    A72494   Limited Scope Postaward Audit of Government                                        $4,055
                     Billings: Robbins Scientific Corporation, Contract
                     Number GS-24F-1360C

10/31/97    A53638   Postaward Audit of Multiple Award Schedule Contract:                             $400,000
                     Government Technology Services, Incorporated, Con-
                     tract Numbers GSOOK88AGS6191, GSOOK89AGS6386,
                     GSOOK90AGS5216 and GSOOK91AGS5038

11/13/97    A80303   Limited Scope Postaward Audit of Cost or Pricing
                     Data: Textron Systems Corporation, Contract Number
                     GS-IOF-40734

11124/97    A42119   Postaward Audit of Multiple Award Schedule Con-                                  $494,657
                     tract: Johnson and Johnson Medical, Inc., Contract
                     Number GS-l OF-7048A

11124/97    A70658   Postaward Audit of Multiple Award Schedule                                        $69,873
                     Contract: Dun & Bradstreet, Inc., Contract Number
                     GS-02F-0350D for the Interim Period October 24,
                     1995 Through May 31, 1997

11126/97    A21849   Postaward Audit of Multiple Award Schedule                                     $3,101,958
                     Contract: Trendway Corporation, Contract Number
                     GS-00F02678, for the Period October 1, 1988
                     Through September 30, 1991

11126/97    A22536   Postaward Audit of Multiple Award Schedule                                     $4,994,452
                     Contract: Ingres Corporation, Contract Number
                     GSOOK89AGS5589

11126/97    A32476   Limited Audit of Government Billings: Ingres                                       $9,992
                     Corporation, Contract Number GSOOK89AGS5589

11128/97    A72477   Postaward Audit of Multiple Award Schedule
                     Contract: Ascend Communications, Inc., Contract
                     Number GS-35F-1019D for the Interim Period July 1,
                     1996 Through June 30, 1997

 12/29/97   A82408   Postaward Audit of Multiple Award Schedule Contract:
                     Sound Pacific, Inc., Contract Number GS-03F-4039B
                     for the Interim Period April 1, 1994 Through March 31,
                     1998




                                                                                      Office of Inspector General 47
                                 Appendix /I .. Audit Report Register

                                                                                              Financial
                                                                                         Recom m endations
                                                                                   Funds to             Questioned
Date of         Audit                                                              Be Put To         (Unsupported)
Report          Number                      Title                                  Better Use             Costs


01113/98         A82416       Price Adjustment on Multiple Award Schedule
                              Contract: R.E. Snader & Associates, Inc., Contract
                              Number GS-03F-4105B for the Interim Period
                              December 31, 1997 Through March 31, 1998

01/15/98         A60948       Postaward Audit of Multiple Award Schedule                                $794,475
                              Contract: Ashland Chemical Company, Drew
                              Industrial Division, Contract Number GS-IOF-7683A
                              for the Interim Period February 1, 1992 Through
                              July 31,1996

01/20198         A82104       Interim Postaward Audit of Multiple Award Schedule
                              Contract: Geomation, Inc., Contract Number GS-24F-
                              1489C

01122198         A81508       Interim Period Postaward Audit of Multiple Award                              $510
                              Schedule Contract: Plymold Seating, Division of
                              Foldcraft Company, Contract Number GS-27F-5021C

01130/98         Anl33        Postaward Audit of Multiple Award Schedule Con-                            $36,944
                              tract: InterVoice, Inc., Contract Number GSOOK93-
                              AGS0546

02110/98         A82105       Postaward Audit of Multiple Award Schedule Con-
                              tract: Austron, Incorporated, Contract Number GS-
                              00F-0719A

02113/98         An483        Postaward Audit of Multiple Award Schedule Con-
                              tract: Larscom, Inc., Contract Number GS-00K-91-
                              AGS-0567

02/13/98         A82422       Postaward Audit of Multiple Award Schedule Con-
                              tract: Larscom, Inc., Contract Number GS-00K-94-
                              AGS-0451

02/20/98         A82429       Postaward Audit of Multiple Award Schedule
                              Contract: Larscom, Inc., Contract Number GS-35F-
                              1l07D for the Interim Period May 23, 1996 Through
                              June 30, 1997

02/24/98         A82424       Postaward Audit of Multiple Award Schedule
                              Contract: Furniture by Thurston, Contract Numbers
                              GS-27F-2003B and GS-27F-2004B for the Interim
                              Period October 21, 1993 Through September 30, 1998



48 Semiannual Report to The Congress
                       Appendix II '" Audit Report Register

                                                                                       Financial
                                                                                  Recommendations
                                                                                                   .----c-;;-----
                                                                             Funds to            Questioned
Date of    Audit                                                            Be Put To         (Unsupported)
Report     Number                  Title                                    Better Use              Costs


02/27/98   A52155    Postaward Audit of Multiple Award Schedule Con-                               $3,761,251
                     tract: Network General Corporation, Contract Number
                     GSOOK92AGS6109

03/03/98   A80905    Postaward Audit of Multiple Award Schedule Con-
                     tract: Eastman Kodak Company, Contract Number
                     GS-26F-IOI8B, Copier SINs 51-55 (Rental) and 51-
                     57 (Maintenance) for the Period January 6, 1994
                     Through December 31, 1996

03/06/98   A82428    Postaward Survey of Multiple Award Schedule
                     Contract: Campbell Scientific, Inc., Solicitation
                     Number FCGR-95-0002-B for the Interim Period
                     March 1, 1997 Through September 30, 1997

03/10/98   A80906    Postaward Audit of Multiple Award Schedule Con-                                   $40,451
                     tract: Eastman Kodak Company, Contract Number
                     GS-26F-1018B, Copier SIN 51-100, Purchase for the
                     Period January 6, 1994 Through December 31, 1996

03/18/98   A81514    Postaward Audit of Multiple Award Schedule Con-
                     tract: Second Chance Body Armor, Inc., Contract
                     Number GS-07F-8799D for the Interim Period
                     August 1, 1996 Through September 30, 1997

03/19/98   A73026    Postaward Audit of Multiple Award Schedule Contract:                             $269,297
                     Sensormatic Electronics Corporation, Contract Number
                     GS-07F-7859C

03/19/98   A83015    Postaward Audit of Multiple Award Schedule Contract:                            $880,137
                     Sensormatic Electronics Corporation, Contract Number
                     GS-03F-4078B

03/23/98   A82431    Price Adjustments on Multiple Award Schedule Con-
                     tract: Molecular Dynamics, Contract Number GS-24F-
                     1213C for the Interim Period April 1, 1998 Through
                     September 30, 1999

FTS Internal Audit
12112/97   A73905    Review of Hotline Complaint-Collecting Excess Fees
                     for Federal Systems Integration and Management
                     Support Center (fiEDSIM) Activities




                                                                                     Office of Inspector General 49
                                 Appendix II Audit Report Register
                                                     n




                                                                                                 Financial
                                                                                            Recommendations
                                                                                      -------~~           ------~----




                                                                                       Funds to            Questioned
Date of         Audit                                                                 Be Put To         (Unsupported)
Report          Number                       Title                                    Better Use             Costs


Other Internal Audits
01122/98         A72l26       Audit of Contracting Officer Warrant Program,
                              Region 7

02117/98         A7l850       Review of GSA's Direct Bill Program for Lodging
                              and Car Rentals

02117/98         A727l2       Limited Audit of the Chief Financial Officer's Fiscal
                              Year 1997 Section 4 Federal Managers' Financial
                              Integrity Act Assurance Statement

02/27/98         A7271l       Report on Limited Audit of the Administrator's Fiscal
                              Year 1997 Federal Managers' Financial Integrity Act
                              Assurance Statement

03/18/98         A72713       Limited Audit of the Federal Technology Service's
                              "Minutes of Use" Performance Measure

03/20/98         A72714       Limited Audit of the Federal Supply Service's
                              "Savings Over Competition for the Market Basket"
                              Perfonnance Measure

03/30/98         A73902       GSA Needs to Prioritize and Accelerate Year 2000
                              Computer Conversion Efforts

Non~GSA         Internal Audits
01106/98         A830l2       Audit of the United States Arctic Research Commis-
                              sion

02111198         A83018       Audit of the Assassination Records Review Board

02/13/98         A830l9       Audit of the James Madison Memorial Fellowship
                              Foundation

Non-GSA Contract Audits
10/03/97         A72490       Preaward Audit of Cost or Pricing Data: Shell Oil
                              Company

01/13/98         A82419       Preaward Audit of Cost or Pricing Data: Shell Oil
                              Company




50 Semiannual Report to The Congress
  Appendix III - Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit           The GSA Office of Management and Workplace Programs,
Recommendations, of the National Defense Authorization Act,   Office of Management Services, Administrative Policy and
(Public Law 104-106), this appendix identifies those audit    Information Management Division furnished the following
reports where final actions remain open 12 months after the   information.
report issuance date.

      Audits with Management Decisions Made after February 10, 1996for Which No Final Action Has Been Completed


Date of         Audit
Report          Number                                              Title


Contract Audits
02/21196        A60631      Preaward Audit of Change Order Proposal: AT&T Communications, Contract Number GS-OOK-
                            89AHD0008

03/01/96        A60327       Report on Audit of Subcontractor's Claim for Increased Costs: Kendland Company Inc., Contract
                             Number GSOIP93BZC0003

03/18/96        A60318       Report on Audit of Claim for Increased Costs: Maron Construction Co., Inc., Contract
                             Number GSOIP93BZC0003

03/19/96        A61224       Report on Audit of Proposal for Initial Pricing Under Solicitation No. GSC-KEGD-95-1009:
                             Integrinautics Corporation, Palo Alto, California

04/10/96        A31549       Postaward Audit of Multiple Award Schedule Contract: GF Office Furniture, Ltd., Contract Number
                             GS-OOF-07017 for the Period December 27,1988 Through September 30,1991

04/23/96        A63622       Preaward Audit of Change Order Proposal: Truland Systems Corporation, a Subcontractor to Turner
                             Construction Company, Contract Number GS-l1 P91 AQC0060

04/25/96        A63615       Audit of Claim for Increased Cost: M & M Welding & Fabricators, Inc., Subcontractor to John J.
                             Kirlin, Inc., Contract Number GS-l1 P90MKCO 129 "NEG"

05/06/96        A63628       Preaward Audit of Cost or Pricing Data: Permanent Solution Industries, Inc., Solicitation Number
                             RFP-GS 11P96MJC0009

05/06/96        A63631       Preaward Audit of Cost or Pricing Data: Tex/ AM Construction Co., Inc., Solicitation
                             Number GS-IIP95MQC0024 "Neg"

05/13/96        A63627       Preaward Audit of Cost or Pricing Data: Landis & Gyr Powers, Inc., Solicitation Number
                             GS I1P95MQC0025

05113/96        A63629       Preaward Audit of Architect and Engineering Services Contract: The Temple Group, Inc.,
                             Solicitation Number GS 11 P95EGDOO 17

05/13/96        A63632       Preaward Audit of Cost or Pricing Data: Kottmann, Inc., Solicitation Number GSC-KRGB-9602

05117/96        A41843       Postaward Audit of Multiple Award Schedule Contract: Memorex Computer Supplies, Contract
                             Number GS-02F-6109A for the Period May 8, 1992 Through March 31,1994




                                                                                                Office of Inspector General 51
  Appendix III .. Audit Reports over                         Months Old with Final Action Pending


Date of         Audit
Report          Number                                               Title


OS/23/96         A63626       Preaward Audit of Change Order Proposal: C. 1. Coakley Co., Inc., a Subcontractor to Turner
                              Construction Company, Contract Number GS-II P91 AQC0060

OS/29/96         AI0539       Postaward Audit of Multiple Award Schedule Contract: Sunshine Chemical Specialties, Inc.,
                              Contract Number GS-07F-13738

OS/29/96         A10541       Postaward Audit of Multiple Award Schedule Contract: Sunshine Chemical Specialties, Inc.,
                              Contract Num ber GS-l OF -48876

OS/29/96         A 10542      Postaward Audit of Multiple Award Schedule Contract:       Sunshine Chemical Specialties, Inc.,
                              Contract Number GS-00F-87668

06/13/96         A63634       Preaward Audit of Cost or Pricing Data: Wm. D. Euille & Associates, Inc., Solicitation Number GS-
                              IlP-96-MKC-00 10

06121196         A60649       Preaward Audit of Architect and Engineering Services Contract: Wank Adams Slavin Associates,
                              Solicitation Number GS-02P-96-DTC-00 11 (N)

06/27/96         A60637       Postaward Review of Real Estate Taxes: Internal Revenue Service, 1133 Avenue of the Americas,
                              New York, NY 10036, Lease Number GS-02B-22680

07/12/96         A62496       Preaward Audit of Lease Escalation Proposal: One Waterfront Plaza Partners, Lease Number GS-
                              09B-89551

07/16/96         A60659       Postaward Audit of Facility Charges Billed: CSC Consulting & Systems Integration, Subcontractor
                              to AT&T Communications, Contract Number GSOOK89AHD0008

07122/96         A60653       Preaward Audit of Architect and Engineering Services Contract: Severud Associates Consulting
                              Engineers P.C., Solicitation Number GS-02P-96-DTC-001l(N)

07/30/96         A60651       Preaward Audit of Architect and Engineering Services Contract: Flack + Kurtz Consulting
                              Engineers, Solicitation Number GS-02P-96-DTC-00 11 (N)

08/13/96         A51851       Postaward Audit of Multiple Award Schedule Contract: Tiffany Office Furniture, Contract Number
                              GS-00F-5057A for the Interim Period April 15, 1991 Through April 12, 1995

08/15/96         A51827       Postaward Audit of Multiple Award Schedule Contract: Sybase, Inc., Contract Number
                              GSOOK92AGS5576 for the Period September 9, 1992 Through September 30, 1993

08/21/96         A61544       Preaward Audit of a Claim: D. L. Woods Construction, Inc., Contract Number GS05P91GBC0057

08/28/96         A60663       Preaward Audit of Change Order Proposal: AT&T Communications, Contract Number GS-OOK-
                              89AHD0008

09/06/96         A63643       Preaward Audit of Cost or Pricing Data: Design Management Associates, Inc., Solicitation
                              Number GSllP96MMCOOlO




52 Semiannual Report to The Congress
  Appendix III - Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                         Title


09/20/96   A61534   Preaward Audit of a Claim: Marino Construction Company, Contract Number GS05P90GBCO 101

10/03/96   A60666   Preaward Audit of Change Order Proposal: AT&T Communications, Contract Number GS-OOK-
                    89AHD0008

10/15/96   A63647   Preaward Audit of Change Order Proposal: Mahogany, Inc., a Subcontractor of Turner Construction
                    Company, Contract Number GS-IIP91AQC0060

lO/17/96   A53617   Postaward Audit of Multiple Award Schedule Contract: Cantwell-Cleary Co., Inc., Contract Number
                    GS-02F -6071A for the Interim Period March 31, 1992 Through October 31, 1994

10/24/96   A63649   Preaward Audit of Architect and Engineering Services Contract: Alphatec, P. C., Solicitation
                    Number GS 11P96EGDOOO 1

10/25/96   A62501   Preaward Audit of a Claim for Increased Costs: Conco Cement Company, Subcontractor to The
                    George Hyman Construction Company, Contract Number GS-09P-93-KTC-0034

11101196   A21882   Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc., Contract
                    Number GS-OOF-07065 for the Period November 14, 1988 Through September 30, 1991

11101196   A31851   Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc., Contract
                    Number GS-00F-02598 for the Period August 26, 1988 Through March 31, 1991

11101196   A31865   Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company, Inc., Contract
                    Number GS-00F-02046 for the Period December 4, 1987 Through September 30, 1990

11/07/96   A63641   Audit of Claim for Increased Cost: John J. Kirlin, Inc., Contract Number GS-IIP91MKC0196 "U"

12/02/96   A40321   Postaward Audit of Multiple Award Schedule Contracts: Spectro Incorporated, Contract Number
                    GS-OOF-2362A; and Contract Number GS-00F-93732

12/17/96   A63646   Preaward Audit of Termination Claim: W.M. Schlosser Co., Inc., Contract Number GSllP95-
                    AQC0002

12117/96   A70606   Postaward Audit of Travel Costs: Centel Federal Systems Corporation, Contract Number
                    GS-OOK-89AHD0007

01110/97   A52159   Postaward Audit of Multiple Award Schedule Contract: Austin Computer Systems, Inc.,
                    Contract Number GS-OOK-91-AGS-5201

01/16/97   A73607   Preaward Audit of Sole Source Contract: Systems Assessment & Research, Inc., Solicitation
                    Number GSC-TFGD-97-1 002

01124/97   A72431   Audit of Real Estate Tax Adjustments: Pacific Corporate Towers, LLC, Lease Number GS-
                    09B-85185, Calendar Years 1987 Through 1995

02/05/97   A73602   Audit of Claim for Increased Cost: United Sheet Metal, Inc., a Subcontractor to John 1.
                    Kirlin, Inc., Contract Number GS-l1 P91 MKC-O 196 "U"


                                                                                       Office of Inspector General 53
                                                                                        ]




  Appendix III - Audit Reports over 12 Months Old with Final Action Pending


Date of          Audit
Report           Number                                             Title


02/06/97         A70622       Preaward Audit of Change Order Proposal: Turner Construction Company, Contract Number GS-
                              02P-95-DTC-00 14
03117197         A72433       Audit of Real Estate Tax Adjustments: L. A. World Trade Center Partnership and Royal Invest-
                              ment System Partnerships, Lease Number OS-09B-85563, Calendar Years 1989 Through 1996
03117/97         A72451       Limited Scope Preaward Audit of Proposed Overhead Rate: ET LaFORE, Inc., Contract Number
                              GS-08P-96-JBC-000 1
03118/97         A70621       Preaward Audit of a Delay Claim: The Haskell Company, Contract Number G8-04B-31363
03/21/97         A70632       Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number GS-02P-94-
                              CUC-0033(N)
03/24/97         A72434       Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number 08-09B-88163,
                              Calendar Years 1990 Through 1996
03/24/97         A72435       Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-09B-91634,
                              Calendar Years 1993 Through 1996
03/25/97         A70306       Preaward Audit of Architect and Engineering Services Contract: R.G. Vanderweil Engineers, Inc.,
                              Solicitation Number GS-OIP-95-BZC-0047
03/26/97         A72429       Preaward Audit of a Claim for Increased Costs: Columbia Fabricating Company, Inc.,
                              Subcontractor to The George Hyman Construction Company, Contract Number OS-09P-93-KTC-
                              0034




54 Semiannual Report to The Congress
  Appendix III - Audit Reports over                Months Old with Final Action Pending


Date of    Audit                                                                  Projected Final
Report     Number                                                                  Action Date


Internal Audits
03/25/96   A53321   FSS' Stock Program Management Information                          04/15/99
                    Systems Need to be Improved to Provide More
                    Accurate and Reliable Information

03/27/96   A43005   Audit of GSA's Aircraft Management Program                         03/15/99

03/27/96   A62424   Audit of Criminal History Background Checks                        04/15/98
                    for Child Care Center Employees

03/29/96   A42720   Audit of Accounting and Billing Controls Over                      09115/98
                    the Public Buildings Service, National Capital
                    Region's Reimbursable Work Authorizations

08/27/96   A62448   Audit of Background Checks on Contractor                           04115/98
                    Personnel

09/30/96   A61835   Audit of Implementation of PBS's Information                       06115/98
                    Systems Strategy

12/02/96   A63019   Audit of the PAPCAP Price Adjustments                              06/15/98

01/13/97   A62503   Audit of Procurement Actions, Central California                   04/15/98
                    Field Office, Pacific Rim Region

01128/97   A63023   Audit of the National Capital Region's Emer-                       06/15/98
                    gency Support Function

02/04/97   A61537   Audit of Postaward Lease Administration:                            12/15/98
                    U.S. Backruptcy Court, Columbus, Ohio, Lease
                    Number GS-05B-lS610

03111197   A60936   Audit of the General Services Administration's                     04/15/98
                    Regional Telecommuting Center Initiatives

03/26/97   A61247   Review of the Public Buildings Service Debar-
                    ment Program                                                       07/15/98

03/28/97   A71503   Review of GSA's Affirmative Procurement
                    Program                                                             07115/98




                                                                        Office of Inspector General 55
                                       Appendix IV - Delinquent Debt




The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                            tion cross-servicing. GSA received payments from the FMS,
                                                                       Debt Management Service (DMS) totaling $236,933 for 265
Collection                                                             non-Federal claims.
During the period October 1, 1997 through March 31, 1998,
GSA efforts to improve debt collection and reduce the amount      • The update of the Treasury Offset Program (TOP) released
of debt written off as uncollectible focused on upgrading the       by the Internal Revenue Service (IRS) on September 30,
collection function and enhancing debt management. These            1997, indicates agencies may use either the TOP or the IRS
activities included the following:                                  Tax Refund Offset Program (TROP) beginning in January
                                                                    1998. GSA elected to use the Treasury Offset Program.
• In our "shadowing" with other agencies, we reviewed vari-
  ous reporting systems to see how we might further enhance       • GSA stopped using commercial debt collection agencies
  our current systems. This has resulted in an accounts receiv-     (DCAs) shortly after we began sending claims to the
  able restructuring team. We have contracted out to a private      Treasury FMS/DMS for cross-servicing. The FMS/DMS
  firm to create a new accounting system to our specifications;     cross-servicing fee of 18 percent is less expensive than the
  we anticipate this system to replace over six databases now       DCA collection fees of 21 to 32 percent. In addition,
  used by both Finance offices. This will standardize our           Treasury FMS/DMS sends claims it cannot collect to DCAs
  internal processes and enhance analytical work and report-        for collection.
  ting.
                                                                  • The GSA Heartland Region continues to improve the new
• In compliance with the Debt Collection Improvement Act of         Accounts Receivable Claims System (ARCS). The new
  1996, the GSA Heartland Region sent 360 non-Federal               ARCS allows multiple users to access data at the same time
  claims totaling $1,295,896 to the Department of the Treasury      and it reduces the time and effort needed to respond to
  (Treasury) Financial Management Service (FMS) for colleo-         customer inquiries.



Non-Federal Accounts Receivable

                                                          As of                      As of
                                                      October 1, 1997            March 31, 1998             Difference
                                                                                                  ----~




  Total Amounts Due GSA                                  $29,843,883                $23,992,730             $5,851,153

  Amount Delinquent                                      $18,355,232                $16,104,809             $2,250,423

  Total Amount Written
  Off as Uncollectible
  Between 10/1/97 and
  3/31/98                                                   $968,112


Of the total amounts due GSA and the amounts delinquent as of October 1,1997 and March 31,1998, approximately $593,000
and $1,754,000 respectively, are being disputed.




56 Semiannual Report to The Congress
                               Appendix V - Reporting Requirements




The table below cross-references the reporting requirements       to the 1980 Supplemental Appropriations and Rescission Bill
prescribed by the Inspector General Act of 1978, as amended,      and the National Defense Authorization Act is also cross-
to the specific pages where they are addressed. The information   referenced to the appropriate page of the report.
requested by the Congress in Senate Report No. 96-829 relative




   Requirement                                         Page

   Inspector General Act

      Section 4(a)(2) - Review of Legislation and Regulations .............................................29

      Section 5(a)(l) - Significant Problems, Abuses, and Deficiencies ..................................... .2,10

      Section 5(a)(2) - Recommendations With Respect to Significant
       Problems, Abuses, and Deficiencies .......................................................... 2,10

      Section 5(a)(3) - Prior Recommendations Not Yet Implemented ....................................... .39

      Section 5(a)(4) - Matters Referred to Prosecutive Authorities ......................................... .34

      Sections 5(a)(5) and 6(b)(2) - Summary ofInstances Where
       Information Was Refused ..................................................................None

      Section 5(a)(6) - List of Audit Reports .......................................................... .41

      Section 5(a)(7) - Summary of Each Particularly Significant Report ....................................2,10

      Section 5(a)(8) - Statistical Tables on Management Decisions
       on Questioned Costs ...................................................................... .33

      Section 5(a)(9) - Statistical Tables on Management Decisions
       on Recommendations That Funds Be Put to Better Use ............................................ .32

      Section 5(a)(lO) - Summary of Each Audit Report Over 6 Months Old for Which No Management Decision
       Has Been Made ......................................................................... None

      Section 5(a)(l1) - Description and Explanation for Any Significant
       Revised Management Decision .............................................................None

      Section 5(a)(12) - Information on Any Significant Management
       Decisions With Which the Inspector General Disagrees ...........................................None

   Senate Report No. 96-829

      Resolution of Audits ........................................................................ 31

      Delinquent Debts ........................................................................... 56

   National Defense Authorization Act ............................................................. 51




                                                                                                  Office of Inspector General 57
                                       Notes




58 Semiannual Report to The Congress
Notes




        Office of Inspector General 59
                                       Notes




60 Semiannual Report to The Congress
Ii
•
I
Y                r
                               I

             •
             I •
To report suspected waste,
fraud,
in GSA, call
             ~-



In                                 lin
         1                 o
Washington, DC metropolitan
       1-1

                  IG,
             Washington,
                                                                 \




\




    Federal Recycling Program   '0   Printed on Recycled Paper
